<html>
<title> - HAS AIRPORT SECURITY IMPROVED?</title>
<body><pre>[Senate Hearing 107-263]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-263
 
                     HAS AIRPORT SECURITY IMPROVED?
=======================================================================



                             JOINT HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                                and the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                         RESTRUCTURING, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 14, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs





                     U.S. GOVERNMENT PRINTING OFFICE
77-439                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Susan E. Propper, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                Ellen B. Brown, Minority Senior Counsel
                    Robert J. Shea, Minority Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

 OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING AND THE DISTRICT OF 
                         COLUMBIA SUBCOMMITTEE

                 RICHARD J. DURBIN, Illinois, Chairman
DANIEL K. AKAKA, Hawaii              GEORGE V. VOINOVICH, Ohio
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               THAD COCHRAN, Mississippi
       Marianne Clifford Upton, Staff Director and Chief Counsel
               Andrew Richardson, Minority Staff Director
          Mason C. Alinger, Minority Professional Staff Member
                     Julie L. Vincent, Chief Clerk









                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     3
    Senator Durbin...............................................     5
    Senator Voinovich............................................     8
    Senator Cleland..............................................    28
    Senator Carnahan.............................................    30
    Senator Levin................................................    34
Prepared statements:
    Senator Akaka................................................    59
    Senator Bunning..............................................    59

                               WITNESSES
                      Wednesday, November 14, 2001

Hon. Jane F. Garvey, Administrator, Federal Aviation 
  Administration, U.S. Department of Transportation..............    10
Hon. Kenneth M. Mead, Inspector General, U.S. Department of 
  Transportation.................................................    13
Bruce E. Carter, A.A.E., Director of Aviation, Quad City 
  International Airport..........................................    37
Marianne McInerney, Executive Director, National Business Travel 
  Association (NBTA).............................................    39
Jacqueline Mathes, Flight Attendant, Association of Flight 
  Attendants, AFL-CIO............................................    41
Captain Duane E. Woerth, President, Air Line Pilots Association, 
  International..................................................    44

                     Alphabetical List of Witnesses

Carter, Bruce E., A.A.E.:
    Testimony....................................................    37
    Prepared statement...........................................    87
Garvey, Hon. Jane F.:
    Testimony....................................................    10
    Prepared statement...........................................    61
Mathes, Jacqueline:
    Testimony....................................................    41
    Prepared statement...........................................    93
Mead, Hon. Kenneth M.:
    Testimony....................................................    13
    Prepared statement...........................................    67
McInerney, Marianne:
    Testimony....................................................    39
    Prepared statement...........................................    90
Woerth, Captain Duane E.:
    Testimony....................................................    44
    Prepared statement...........................................   101










                     HAS AIRPORT SECURITY IMPROVED?

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2001

                                       U.S. Senate,
               Committee on Governmental Affairs, and the  
             Oversight of Government Management, Restructuring,    
                       and the District of Columbia Subcommittee,  
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Durbin, Levin, Cleland, 
Carnahan, Thompson, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing. Today, the full Committee on Governmental Affairs and 
the Oversight of Government Management, Restructuring, and the 
District of Columbia Subcommittee, asks the question that I 
would guess millions of Americans are asking. Has aviation 
security improved since September 11?
    The fear and loss of life caused by the attacks that day 
have focused an intense and very personal spotlight on the 
question of aviation security. Since September 11, the number 
of airline passengers has fallen off dramatically.
    The crash just this past Monday of American Airlines Flight 
587 in New York, of course, has renewed concerns in the minds 
of many Americans about the safety of air travel. Our hearts go 
out to the families of those who died in that crash even as we 
continue to work to find ways to allay concerns about the 
security of air travel. If the cause was mechanical, we need to 
find out what went wrong and take steps to prevent future 
accidents. If it was a terrorist act, of course, we must 
urgently redouble our efforts to make our airports and 
airplanes more secure.
    As one airline executive told the Washington Post, ``While 
it is tragic under any circumstance, the impact to the psyche 
of the traveling public would be greater if it were a security-
related cause.''
    Because its investigation is just beginning, I do not 
intend to ask the FAA or other witnesses today questions 
directly related to the Monday crash. This hearing was 
scheduled well before that incident and is more broadly focused 
on the measures that the FAA, the airports, and the airlines 
have taken in the wake of the September 11 attacks.
    We in Congress began our most recent round of 
investigations on airline security immediately after September 
11. This Committee held a hearing just about 2 weeks later, on 
September 25. The Senate finished work a month later, October 
11, on an aviation security bill that makes sweeping changes in 
the way that airline and airport security is handled, including 
expanding the air marshal program and federalizing passenger 
and baggage screening services.
    I am very proud that amendments to this bill sponsored by 
Senator Durbin and me on the one hand and Senator Thompson on 
the other, which emerged from our earlier hearing, were adopted 
by the full Senate and are part of the bill and make it 
stronger.
    The House later passed a very different bill, and as we all 
know, the conferees are now at work. I want to plead with the 
conferees, our colleagues in both parties from both Houses, to 
really stretch to quickly reach an agreement because it will be 
truly outrageous if Congress leaves for Thanksgiving without 
passing aviation security legislation and sending it to the 
President to be signed. It is, after all, now more than 2 
months since our aviation system was used by terrorists to 
attack us. We have acted very rapidly on a host of other 
measures in response to those attacks, including $15 billion of 
aid to the airlines. It is long past the time when we should 
find common ground and pass this aviation security legislation.
    Remember, as Congress also struggles to find similar common 
ground on an economic stimulus package for our receding 
economy, that aviation security also means economic security 
and economic growth. So passage of the aviation security 
legislation, I think, both in direct terms and in its 
psychological effect, is one of the best things we can do to 
help our economy grow again.
    But even if enacted today, the changes in the aviation 
security legislation would not have an immediate effect. The 
focus of this hearing is, therefore, on what has been done, 
what is being done, and what should be done to improve aviation 
security.
    Since September 11, the FAA has issued a series of new 
security directives to airports and airlines. Some of them are 
familiar to those of us who fly frequently, like the 
restrictions against anyone but ticketed passengers in sterile 
areas and the conspicuous presence of uniformed National Guard 
personnel at screening checkpoints. Other less visible measures 
are also being undertaken, such as the use of computer programs 
to pre-screen passengers and stepping up security in the ramp 
areas.
    And consistent with Transportation Secretary Mineta's zero-
tolerance policy, FAA is more willing today to take stronger 
actions in response to perceived security breaches, such as 
bringing taxi-ing planes back to the gate, evacuating a 
concourse, or holding a flight, as has been done on numerous 
occasions since September 11, and those are all welcome 
developments.
    Nonetheless, there continue to be embarrassing and 
potentially dangerous lapses in security, the most egregious of 
which occurred a week and a half ago with the passenger at 
O'Hare National Airport.
    Today, we want to explore how such incidents still occur in 
spite of the heightened vigilance. We need to ask how unusual 
are these incidents. Are there more such incidents today than 
there were last year or are we just more aware because of 
heightened public and media scrutiny? And bottom line, are 
airline passengers safer today than they were on September 11?
    We need to question if the new FAA requirements are 
stringent enough to deter violence in our skies and if they are 
being properly carried out by security personnel on the ground. 
How consistently are the orders being implemented across the 
Nation? Why, for instance, as we hear, does it seem that random 
carry-on baggage checks are standard in some airports but not 
in others?
    We also want to find out how aggressively airlines are 
examining checked baggage. For example, in spite of the fact 
that the government has ordered that greater use be made of 
explosives detection systems, passengers have reported to us 
seeing these machines sitting idle in some airports. In fact, 
we will hear from the Department of Transportation's Inspector 
General today that a spot check conducted at nine airports 
during the past weekend showed that fewer than 30 percent of 
the machines are in continuous use. And it turns out that the 
American Airlines terminal at Kennedy International Airport, 
where Monday's ill-fated flight originated, apparently has no 
bomb detection equipment at all. How can that be so?
    President Bush's announcement that he will increase the 
National Guard presence at airports by 25 percent over the 
holidays, as well as expand their duties, is, of course, 
welcome, but the Committee and I think a lot of the American 
people would like to know more about the National Guard's role 
and its effectiveness.
    Americans who want to fly ought to be able to look forward 
in this season of celebration to celebrating and not to feeling 
rampant insecurity. Those are the lines of inquiry that I hope 
we are going to pursue today as part of an ongoing oversight 
role for this Committee in pursuit of greater aviation 
security.
    Let me now turn to Senator Thompson, the Ranking Member of 
the full Committee.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman, and thank you 
for your leadership in this area, especially in crafting the 
bill on the Senate side. I think we will have a bill because we 
should, and we oftentimes do what we should do and I think this 
is going to be one of those times.
    But I want to focus in on one particular aspect of the 
discussion. We are hung up right now, apparently on the 
question of federalization or non-federalization, and the point 
I would like to make is that it is not going to make any 
difference as to where we come out on that unless we have 
actual people on the ground, screeners and others, doing their 
job. So what can we set up to more likely produce a good 
situation on the ground?
    I think we did something good in the Senate bill. It is not 
in the House bill. And I would hope, above all, even above the 
Federal/non-Federal discussion, that we wind up with provisions 
in there that will clearly set performance goals and measures 
and then hold those responsible strictly accountable for 
meeting them. I think that is what has been lacking. And 
whichever direction we go, surely we can have a provision like 
that.
    Performance subject to accountability is not yet 
institutionalized within the industry as it is in many 
industries, but it must be. Where are the incentives for the 
top safety executives to ensure that their workforce is up to 
this enormous challenge? What drives the head of security at 
each airport to guarantee that his or her employees are 
trained, rested, and alert? How motivated is each individual 
screener to perform his job, knowing that good performance will 
be rewarded and poor performance might mean the end of that 
job?
    Across all levels of this enterprise, accountability has 
largely been missing except when the TV cameras are watching. 
Instead of merely reacting to each unfortunate discovery of 
dangerous items that make it through the screening process onto 
an airplane, we must be proactive, making sure that the right 
tools are in place from the start. Until each employee has a 
clear understanding of what his job is and has a reason to do 
it the right way, we will keep playing catch up.
    Therefore, we must begin with a comprehensive performance 
plan which gives the entire airline security sector a clear 
strategic direction. We then must establish performance goals 
for all levels of management, not just the screeners, that flow 
from the plan, and leave no doubt about what is expected 
throughout the organization. Finally, we ought to include 
bonuses for superior performance as well as provisions that 
allow employees who fail to meet these goals to be suspended or 
terminated.
    The Senate airline security bill included an amendment that 
I drafted to put such a management system in place and I urge 
my colleagues to consider the amendment and make that a part of 
the law.
    We have had a lot of discussion about the upsides and 
downsides of federalizing this system, more or less. One of the 
main objections to federalizing it, for lack of a better term, 
has been that it is so difficult to discipline those who are 
found to be not up to the job in the Federal system. The 
Federal employee does have a number of appeal rights. In 
addition to whatever internal appeal rights might be available 
to the employee at his or her agencies, they may also appeal 
through the Merit Systems Protection Board and the Equal 
Employment Opportunity Commission.
    I found very interesting a recent review of this appeal 
process by the Inspector General of the Railroad Retirement 
Board. He said this. Under the current system, Federal 
Government management is often reluctant to take necessary 
disciplinary action to contest dubious claims filed by 
employees. The result is a bureaucracy that accommodates 
employees who cannot or will not perform their jobs, because at 
times, management is unable to meaningfully and efficiently 
deal with the problem and the ensuing burdens of litigation. 
Now, that employee may be removed from the specific job while 
the appeal process is going on, but this does not do much to 
instill accountability.
    Now, the Senate bill, I think, addressed this and allowed, 
really removed screeners from any of the protections afforded 
under Title V. What we did was add on to that. In the first 
place, our amendment does not, as you know, does not just apply 
to screeners. It applies to every employee hired under the Act. 
It requires the Department to prepare a performance plan 
setting out goals and objectives necessary to ensure aviation 
security and that every employee who is hired must enter into a 
performance agreement where they commit to being evaluated 
based on their performance and achieving goals related to the 
aviation industry. The head of aviation security can take 
performance into account when deciding to fire screeners.
    So I think it is a responsible approach. You do not want to 
just fire people willy-nilly based on somebody's whim. We have 
a system here. We have got performance goals. We have got a 
system set up to see whether or not people are meeting those 
goals and then we have got the opportunity for people to act on 
that.
    Now, there are certainly other reasons to believe that 
federalizing the system is not going to solve all of our 
problems, and I do not even want to get into that debate. The 
point is, whether you have a Federal system or whether you have 
a system where you contract with Federal supervision, this 
provision that I just discussed can be placed within either one 
of those systems so that we can have some accountability and 
some motivation and reward and punishment for the people 
actually on the ground doing the job, and that is what we are 
going to have to wind up having in order to get this job done.
    So I urge that we keep that in mind as we go along. Thank 
you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Thompson. I 
fully support your amendment and I am proud that it emerged, at 
least in part, from a hearing we held on September 25, as did 
the amendment that the Senate also adopted that Senator Durbin 
and I worked on that would expand background checks of airport 
personnel, employ more effective passenger and baggage 
screening procedures and equipment, and fund some accelerated 
research and development of promising new technologies.
    Senator Durbin is the Chairman of the Subcommittee who is 
co-chairing this hearing and has been a passionate and 
persistent advocate for aviation security. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Chairman Lieberman and Senator 
Thompson, for this important hearing. It is an opportunity for 
us to get an update on what has occurred since September 11 by 
way of airport and aviation security.
    I am glad that Bruce Carter, who is Director of Aviation at 
the Quad City International Airport in Moline, is going to be a 
witness later on. He will bring a perspective to this 
discussion which is important. And Jacqueline Mathes of 
Woodstock, Illinois, representing the flight attendants, will 
also be here to share with us some of their feelings on the 
front line of the war against terrorism on our airplanes and in 
our airports.
    Let me say that it is a curious situation that we now 
across America are confiscating nail clippers at a time when we 
learned that a man got on a plane yesterday with two meat 
cleavers in Miami and made it to Chicago through the screening 
process. It is odd to me that we are confiscating cuticle 
scissors at a time when a man ten days ago was able to get 
through the screening check at O'Hare with seven knives, a stun 
gun, and a can of mace in his baggage. It is a suggestion to me 
that the current system, despite the disaster of September 11 
and all of the negative publicity, has been unresponsive.
    And the largest private contractor, Argenbright, announced 
last Friday that they got the message. Now they understand 
there is a problem. Excuse me. This is a death bed conversion. 
This company has known since September 11 that this is a 
national crisis, and the fact that they have not responded in a 
way to create peace of mind across America is an indication to 
me that this system is fatally flawed as it currently exists.
    I want to commend Senator Thompson for bringing out some of 
the specifics of the Senate legislation, which passed on a 
bipartisan roll call vote of 100-0. The critics of this 
legislation have not considered the specifics, which provide 
for, first, no right to strike, and second, the performance 
contracts which he referred to which make it clear that if 
people are hired under the Senate provision, they can be 
dismissed for failure to perform in a professional manner. 
That, to me, is an assurance to all the critics of our bill 
that we are not creating a bureaucratic nightmare that will 
protect people in positions when they are incompetent, and we 
have seen clear indication and evidence of incompetence in the 
current system.
    Allow me to add one other point. Let me concede the 
obvious. No matter who wins this debate, whether we federalize 
the screeners or keep them in the private sector, there are 
bound to be lapses in security in the future. That is going to 
happen. But it is our responsibility in Congress to take the 
most prudent course and the safest course to try to make 
airports and airline travel more predictable and safer for 
people across America.
    There used to be an old saying, would you buy a used car 
from this man? I think when we look at the current system, 
American families are saying, would I trust the safety of my 
family to the current system, to Argenbright and all of the 
other screeners at the airports? And the answer to that 
question, unfortunately, is demonstrated by the fact that 
people are reluctant to get back on airplanes.
    So here we are, weeks after having passed a bill 100-0. It 
is now sitting in a conference committee. I hope it is resolved 
this week. The people who are against the bill have made it 
clear where they are coming from. Mr. DeLay has said he does 
not want Federal employees. Mr. Armey has said we cannot have 
people joining unions, and that seems to be the motivating 
force in opposition to what the Senate has proposed.
    Just for the record, let us put in a reminder that those 
firefighters, those police officers, those postal employees, 
those people who have given their lives on the front line of 
the war against terrorism were public employees and members of 
unions and we have been very proud of them as Americans. We 
have called them our heroes.
    Today, we are going to hear from the front line what is 
going on across America. I hope that this hearing will be a 
motivation for the members of the conference committee to waste 
no time. Pass this bill this week. Get it in place, moving 
forward. Restore confidence so that people can return to the 
airlines and airports. Thank you, Mr. Chairman.

                  PREPARED STATEMENT OF SENATOR DURBIN
    Chairman Lieberman, I am pleased to co-chair this important hearing 
with you this morning. I commend you for bringing the Committee 
together to assess the progress made in securing our national aviation 
system since the September 11 attacks.
    First, let me express my sympathy to the families of the passengers 
and crew of American Airlines Flight 587 and to those who were affected 
in Queens, New York.
    I would like to take this time to thank our witnesses. In 
particular, I want to recognize Bruce Carter, Director of Aviation at 
Quad City International Airport in Moline, Illinois. Bruce has a wealth 
of aviation and airport management knowledge and has managed a number 
of Illinois airports. Quad City International Airport is the third 
largest commercial airport in Illinois, enplaning about 400,000 annual 
passengers. I look forward to his testimony.
    Jacqueline Mathes of Woodstock, Illinois is here representing the 
flight attendants. By the way, Jackie is someone I met on an airplane. 
She has been a familiar face on United Airlines flights from the 
Washington, DC to Chicago, O'Hare market. She will testify as someone 
who is on the front lines, both in airports and on board commercial 
airplanes.
    Mr. Chairman, today's hearing is a follow up to the joint 
Subcommittee-Full Committee hearing on September 25. We want to explore 
the changes that have been made since September 11 at our nation's 
airports, on board airplanes, and within the Federal Government.
    This hearing is not designed to point fingers or assign blame. What 
has been done? What still needs to be addressed? How effective is the 
Federal Government working with state and local governments and private 
industry?
    Before we move to the witnesses, I'd like to share a few 
observations. First, it has been just over 2 months since the September 
11 attacks and we still do not have an aviation security bill. This is 
inexcusable. The American traveling public should not have to begin the 
busy holiday travel season with anything less than the peace-of-mind 
that Congress and the Administration have done everything possible to 
improve aviation security. This is not the time for partisan politics. 
But it's also clear that simple internal reforms at private security 
firms, like Argenbright, won't do the trick. If these firms didn't get 
the message on September 11, they never will.
    In fact, just last night, a 76-year-old chef was being held in 
Chicago after he flew from Miami to O'Hare with two meat cleavers in 
his carry-on bag. These cleavers were only found when he went to board 
another flight. And recently in Boston, a security guard left her post 
unattended for several minutes, causing hundreds of passengers to be 
cleared from the terminal. While it may be hard to make the case that 
this man was a terrorist or that the Boston incident posed an immediate 
threat to our national airspace, it is disturbing that these security 
breaches continue to happen. Inspector General Mead has noted in his 
written testimony that since October 30, approximately 90 incidents 
ranging from concourse evacuations to passenger deplaning and 
rescreening have occurred. In my opinion, that's 90 too many.
    Second, while law enforcement officials and National Guard troops 
have been deployed at our nation's airports, we need to do more to 
clearly define their roles and ensure that effective communication and 
coordination exists.
    For example, 2 weeks ago at Chicago O'Hare International Airport, a 
27-year-old man with an expired student visa was able to sneak seven 
knives, a stun gun, and a can of pepper spray past a security screening 
checkpoint and enter the boarding area of a United Airlines flight to 
Omaha. He was able to accomplish this despite the fact that screeners 
took two knives from him as he initially passed through the screening 
checkpoint. His bag was not search and he was not otherwise detained. 
When a United employee subjected him to a random search in the boarding 
area and these additional weapons were discovered, he was simply 
charged with a misdemeanor and sent home. It wasn't until the next day 
that the FBI moved to arrest and hold him on more serious charges. And 
this was done only after he returned to the airport to claim his bag. 
Furthermore, two of his knives were stolen, allegedly by security 
screeners who were later fired.
    You know something is truly wrong when toe nail clippers are being 
confiscated by the thousands yet someone makes it to the gate with an 
arsenal of weapons.
    The O'Hare incident raises some important questions. What's the 
role of local law enforcement at our airports? The role of Federal 
agents? The National Guard's function? If it's window dressing, 
reassurance, peace-of-mind for jittery travelers, that's great. But, 
let's ensure that in addition to a show of force there's also real 
coordination and an effective common security strategy.
    Let me again put a plug in for seamless security from curbside to 
cockpit. I'm anxious to hear of the changes not only on board 
commercial airplanes but in our airports--both large and small--since 
September 11. While there are certainly specific challenges at O'Hare 
or Washington Dulles or at Quad City International Airport, the basic 
procedures and effectiveness of overall security should not be any 
different in Washington, DC or Moline, Illinois. Afterall, all these 
airports are also gateways to the national-international aviation 
system and U.S. airspace.
    Finally, I want to talk about perimeter security and employee 
access to secure areas. Do we know who our airport/airline employees 
are and have they been subjected to comprehensive background checks? 
Are airport employees required to undergo the same scrutiny as 
passengers? I know how it should work, I've read the press releases and 
seen the hidden camera investigations, but my question to our witnesses 
today--Is it working?
    With that Mr. Chairman, I want to welcome our witnesses, including 
FAA Administrator Jane Garvey and Inspector General Mead. I thank you 
again for co-hosting this hearing with me.

    Chairman Lieberman. Thank you, Senator Durbin.
    Senator Voinovich is the Ranking Member of the 
Subcommittee.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman, and I would 
like to thank you and Senator Durbin for calling today's 
hearing on aviation security. I think that when you decided to 
have this hearing, none of us would have anticipated the recent 
tragedy of American Airlines Flight 587 that we had in New York 
City. The only consolation there is that preliminarily, at 
least, it has not been attributed to terrorism, but that really 
does not make me feel any better, particularly if it is through 
defective equipment, lack of maintenance, or pilot error that 
was the cause of that tragedy.
    I think we ought to understand that there is a great deal 
of fear and anxiety out there today among the American people, 
anxiety and fear that I have never seen before in my almost 35 
years in government. People are comforted, Mr. Chairman, by the 
fact that they believe the President is doing a good job and is 
making his decisions based on what he feels is in the best 
interest of the American people, and also because of the fact, 
and this came through loud and clear when I visited the Toledo 
Post Office 2 weeks ago, that it appears to them that 
Republicans and Democrats in Congress are working together and 
putting aside partisan politics for the betterment of the 
people of this country.
    I also would like to let you know that I was encouraged 
that when I met with the postal workers I learned that what we 
heard from the Postmaster General and the union leaders that 
cooperation has filtered down to the rank and file front line 
workers in our domestic war against terrorism. I made it very 
clear to them that we are going to do everything that we can to 
help them, to make sure that they are secure in their jobs, 
because we knew that if they are secure in their jobs and the 
mail is secure, that the American people would feel secure 
about their postal delivery and that would help lessen this 
tension that we have today out there in our country.
    I have seen a large increase in the security at airports 
that I travel to, and I think members of Congress know more 
about this maybe than anyone else because we travel so often. I 
wish that Congress had worked and moved quickly to pass 
legislation to increase airport security. The fact of the 
matter is that the President is right. We need to get that 
legislation passed before we go home for Thanksgiving, period.
    I want to say to Ms. Garvey that I have seen an improvement 
in it, and I know there are the stories of the meat cleavers 
and the rest of it. I am most concerned about the inconsistency 
in enforcement.
    For example, I was flying out of Boston. I have a little 
screwdriver that I use to tighten the frames of my glasses so 
that the glass does not come out. It was confiscated. Now, that 
was the first time. I have had that in there time and time 
again.
    The other thing that bothers me is the inconsistency when 
they check the luggage and how they go about doing it. There 
doesn't seem to be any kind of standards that are involved.
    One thing that you and I have talked about is that when I 
travel within 24 hours of purchasing a ticket, I have my bags 
checked. I do not know whether you have experienced that or 
not, but I have almost every time now that I have traveled, 
because my ticket is usually purchased within 24 hours. I get 
stopped as a result of that. Last week in Boston, twice I spent 
15 minutes having my bags checked.
    Senator Thompson. You are suspicious looking.
    Senator Voinovich. I am suspicious. A member of the U.S. 
Congress, they knew it and so on and so forth, but spent all of 
that time with me, and you wonder to yourself, again, is this a 
mindless type of operation? I do not mind the time. That is 
fine. But it seems to me that it is ridiculous that you take 
all this time with members of Congress when there are greater 
risks.
    So there is a real problem there, and whatever kind of 
legislation that passes, I agree with Senator Thompson that you 
have to do a really good job in improving the standards so that 
there is consistency across the country, so when I travel from 
Columbus or Cleveland or wherever I am traveling from, that I 
can see that it is uniform across the board.
    It seems to me that we ought to be able to pass some type 
of hybrid legislation. If you do not want to federalize it, 
then maybe there is another solution. I would be interested in 
hearing your opinion today. If government set the standards, 
could we allow some private companies to do the job and then 
maybe federalize those that are not getting the job done? But 
there has got to be a way of getting this thing done now and 
not have it drag on.
    I agree with Senator Durbin that to argue that we ought not 
to federalize this function because these people are going to 
join the union is ridiculous. I think one of the reasons why 
people want, perhaps, to federalize this is because they trust 
their police department, they trust their sheriffs, they trust 
their fire departments. I have high regard for those employees. 
They have done a good job, and I think that if we federalize 
this, they would do an outstanding job. Now, if we cannot get 
an agreement on doing that, let us get on with something.
    But we certainly should not demean the people who are doing 
an outstanding job, we have seen it, have we not, what they 
have been able to do in New York and in Arlington and right 
across the country. I am very proud of them.
    So I am anxious to hear what you have to say. What are your 
observations? Has security improved? Do you see the traveling 
public coming back?
    One other thing that you need to understand is that not 
only is this important for our personal safety, but this has 
had a devastating impact on the economy of the United States of 
America. A couple of weeks ago, I had breakfast with Alan 
Greenspan and I said, what is the first thing that you would do 
to get the economy off the ground? He said, get the planes in 
the air, No. 1. It is having a terrible impact right across 
this country today.
    So this is important not only to the security of the 
traveling public and the national security, but, by golly, this 
is important to the economy of this country and it really needs 
a boost today because it is tumbling. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. I was 
thinking as you were talking, I have had my baggage opened and 
searched three or four times in the last couple of months and 
one constructive result of that I have found is that it brings 
great pleasure to my fellow airline passengers who watch this 
happening to me, so that is a good result. [Laughter.]
    We will go now to our two witnesses, and I welcome them 
with thanks for their time and the leadership they have given 
in a very difficult period of time.
    We will begin with the Hon. Jane Garvey, Administrator of 
the Federal Aviation Administration.

  TESTIMONY OF HON. JANE F. GARVEY,\1\ ADMINISTRATOR, FEDERAL 
   AVIATION ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Garvey. Good morning, Mr. Chairman, Senator Thompson, 
Members of the Committee. I appreciate very much the 
opportunity to be with you this morning to discuss the steps 
taken in the aftermath of September 11.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Garvey appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    Before I begin my remarks, I would like to offer a few 
words on the recent crash of American Airlines Flight 587. 
Certainly, Mr. Chairman, I join with you in saying that our 
thoughts and prayers are with the families of the victims of 
this tragedy and also with the people of New York, who have 
suffered a great deal since September 11.
    The National Transportation Safety Board is leading the 
investigation, and while it may be too early to theorize on the 
causes of the crash, as Members of the Committee have 
indicated, certainly the early signs lead us to believe that 
this was a tragic accident. The FAA will support the NTSB and 
lend whatever expertise is necessary, and I am confident that, 
in the end, a cause to this accident will be determined.
    What I would like to do this morning is to address two 
critical issues. First, the security measures that we have put 
in place since September 11, and second, the areas where we 
will focus on in the coming days and weeks ahead.
    The approach that we have taken has had one guiding 
principle and that is to put in place layers of security, a 
series of redundancies to significantly increase the security 
throughout the Nation's aviation system. There is a recognition 
that there is no one single solution, no one single approach 
that will provide the complete answer. Rather, it is a layered 
approach using various procedures and various technologies.
    I know a number of you have mentioned some of the measures 
that are in place, but I will just highlight a few. One calls 
for the airlines to reinforce the cockpit doors, and I am very 
pleased to report that the major airlines have completed that 
work--that is good news--with a lot of support, by the way, 
from Congress in terms of financial support in that area.
    Chairman Lieberman. So that all the cockpit doors----
    Ms. Garvey. For all the commercial aircraft, that is about 
4,000, that is 100 percent complete.
    Chairman Lieberman. All done?
    Ms. Garvey. All done.
    Chairman Lieberman. Great.
    Ms. Garvey. The regional airlines are making progress, as 
well. They are not fully complete yet, but making good 
progress. So that is good news.
    We have significantly increased the number of Federal air 
marshals, again, with enormous support from Congress. We could 
not have done that without Congress's help.
    We are calling for more random searches throughout the 
airports. We are requiring positive identification for all 
passengers before they board. We are reducing the number of 
access points to secure areas and we are increasing the use of 
explosives detection.
    I want to make a comment about the use of explosives 
detection systems, because the IG and I have talked a great 
deal about that. We are not where we want to be. We are calling 
for continuous use. We know we need to keep on the airlines to 
make sure that those are being used continuously. We have seen 
an increase of about 30 percent, but we are not there yet and 
we know that is a focus for us.
    We are also requiring that all airports and airline 
employees with access to the secured areas have their IDs 
reissued, undergo background checks, and are compared to 
``watch lists.''
    We have also increased the number of uniformed security at 
our Nation's airports. One of the most visible aspects, as you 
have mentioned, is the deployment of the National Guard. Last 
week, the President announced a 25 percent increase in the 
numbers of National Guard troops deployed at the airports. I 
want to just mention that the increase really came about as a 
result of requests from governors, and from members of Congress 
who said that we need more of them but we need to use them in 
different places, not just at the checkpoint areas. So we have 
expanded their mission. They will be patrolling the perimeters 
of the airports. They will be used on the ramps. They will be 
used in other locations in addition to the checkpoint areas.
    In addition, as you have mentioned, we are taking swift and 
immediate enforcement of all the security directives at the 
Nation's airports. That was a real concern for Secretary 
Mineta. When there are lapses or other deficiencies, 
rescreening of passengers and baggage is ordered. In many 
instances, this has resulted in closing gate concourses and 
emptying planes so that passengers or baggage can be 
rescreened.
    In order to prepare for the holiday travel season ahead, we 
are hiring an additional 225 people to augment our special 
agent workforce. I want to mention that many of these 
individuals have security backgrounds. They are, as a matter of 
fact, a number of them laid-off airline employees and we are 
going to use them to augment the work that our special forces 
are doing.
    Each of these steps, I believe, represent the right 
measures, but they are not the only measure. In the days and 
weeks ahead, there are several areas that we will continue to 
be very focused on. One is to make sure that the security 
directives are implemented and that they are implemented 
consistently. You have raised that as an issue and I would be 
happy to talk about that more in questions and answers.
    Second, we have got to be ready when we transition to a new 
agency. We know we are going to restructure screening. We know 
it is probably going to be a new agency. How that transition 
takes place is taking a great deal of our time. We have 
listened carefully to the debate in Congress. We have got 
screening performance measures that are ready, and that will be 
put in place, and training packages that are ready no matter 
what the structure is. So we want to be able to transfer that 
and be able to turn that over to a new agency.
    Focusing on technology. We are ordering more EDS equipment 
and getting that out to the airports. I will tell you, if it is 
manufactured and ready to go, we are going to be ready to get 
it out there. We have received, as you can well imagine, 
hundreds of proposals on technology and we have assembled a 
very expert team of outside folks who are helping us evaluate 
those proposals. We expect the first report by the end of this 
month and I am looking forward to that.
    We are continuing to ramp up on the Federal air marshal 
program. We are bringing back former Federal air marshals, and 
retired Secret Service agents who can help us in the training 
that is needed. It is a very aggressive program and we are 
working very hard on that.
    We are developing and see a real need for a shared database 
among all Federal agencies, including the intelligence 
agencies, and I am particularly encouraged by the leadership of 
Governor Ridge and the Homeland Security Office in this area.
    And finally, I just want to mention that we have received 
some wonderful recommendations from the flight crews. We spent 
some time on Sunday with some of the flight attendants. We will 
be spending some time this afternoon with the pilots. There are 
some recommendations that they have that we have already put in 
place, but others that we have not yet acted on. I think we 
need to consider those and move forward on those very quickly.
    Our goal must be an integrated and seamless security web, 
one that leads to 100 percent screening of all passengers, 
baggage, and airport and airline employees. I certainly look 
forward to working with Congress to achieve that goal and I 
would be happy to answer any questions that may arise in the 
discussion today. Thank you very much.
    Chairman Lieberman. Thank you, Ms. Garvey.
    Now we are very happy to have back with us, and thank him 
for his continuing good work, the Hon. Kenneth Mead, who is the 
Inspector General of the Department of Transportation. Mr. 
Mead.

 TESTIMONY OF HON. KENNETH M. MEAD,\1\ INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman. It is a pleasure to be 
here with Administrator Garvey again. I would like to commend 
the Committee for its persistent and comprehensive oversight of 
this subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mead appears in the Appendix on 
page 67.
---------------------------------------------------------------------------
    It is difficult to believe that roughly 80 days ago, the 
main debate in the aviation community was the need to lay more 
runways, put out more concrete, and deal with congestion and 
capacity. How times have changed.
    What I would like to do today is focus on improvements that 
have been made since September 11, and, of course, improvements 
that still need to be made.
    The observations of our auditors and investigators across 
the country are that security is noticeably tighter, as I think 
most of you would acknowledge. That is not just a statement to 
help restore confidence. That is a fact. We are not nearly 
where we ought to be, but it is our judgment that the 
Department has been moving very forcefully in the right 
direction, and fairly quickly, if you stop and think about the 
changes that have occurred in the past 60 days.
    I would add to what you say about the aviation security 
legislation. This is not just any piece of legislation dealing 
with a passing issue or dealing around the edges. This 
legislation deals with very fundamental changes. The measures 
we are speaking of today are a temporary patchwork quilt, and I 
think the legislation will put the fundamental changes in place 
and give a more systemic approach to it, particularly with the 
points that Senators Lieberman, Thompson, and Durbin made about 
the amendments that were offered. I think the performance 
measures that Senator Thompson mentioned represent an area that 
is ripe for that type of application.
    Everybody has mentioned so far today a number of the 
different security improvements. I would just like to list ten 
that our auditors and investigators think are making a 
difference.
    Watch lists and intelligence sharing. Perhaps we do not see 
100 percent improvement compared to pre-September 11, but it is 
pretty close.
    Intensified passenger and carry-on baggage screening, 
including secondary screening at the gate. Despite the 
imperfections, it has been beefed up.
    Limiting access beyond the screening checkpoints to 
passengers with tickets.
    Greater use of explosives detection machines for checked 
baggage.
    Revalidating airport IDs.
    Increasing the law enforcement presence.
    Expanding the Federal Air Marshal program.
    Deploying Guard troops.
    Reinforcing cockpit doors.
    Banning cargo from unknown shippers, a fairly substantial 
list.
    Despite those measures, Mr. Chairman, there are still 
alarming lapses of security and some systemic vulnerabilities 
that we think need to be addressed. You may know that the 
President, the Secretary, and the Attorney General called on 
the Inspector General to assist in the oversight of airport and 
aircraft security, most recently Friday in his news conference. 
He has instructed us to conduct undercover audits at airports 
nationwide, and I want you to know that our teams will be in 
place before the Thanksgiving weekend and we will be conducting 
a variety of unannounced tests nationwide.
    I would like to say a word about Secretary Mineta's zero-
tolerance policy, which he announced on October 30. If security 
lapses are found, the Secretary authorizes concourses to be 
evacuated, passengers rescreened, and flights halted, if 
necessary. This is really in the best interests of aviation 
security. It shows that there will be consequences when there 
is a compromise of security and noncompliance with the rules. 
It also demonstrates to air carriers and screening companies 
that it is more cost effective and efficient to do it right the 
first time.
    In implementing the zero-tolerance policy, our office and 
FAA have found instances where the air carriers were not 
continuously using the explosives detection systems to check 
baggage. Staff at screening points were frequently not 
identifying dangerous items in carry-on baggage. And air 
carriers were not randomly screening passengers before boarding 
aircraft. These are not the general rule, but they are 
instances that we noted and we need to do away with those 
instances.
    Actions taken by FAA included the de-planing of the 
aircraft, evacuating a concourse, halting flights, and 
rescreening passengers. There have been about 90 incidents 
across the country that have necessitated that type of action.
    I would like to turn now to five action areas that I would 
recommend we pay attention to in the near term, and this will 
be the case when that legislation passes, as well.
    First on my list is ensuring that the air carriers maximize 
the use of bulk explosives detection machines for screening of 
checked baggage. During our observations this past week, most 
carriers were not selecting enough passengers to supply the 
machines with a constant stream of bags. These machines are 
still underutilized, yet we found one carrier who was trying to 
make sure that every bag went through the explosives detection 
machines. So it is that inconsistency that you were referring 
to earlier, Senator Voinovich.
    We also observed instances where the explosives detection 
machines were not adequately staffed or the staff had been 
working extremely long hours on the machine--in one instance, 
15 to 20 hours. In our opinion, that screener was no longer 
alert. In that instance, due to the lack of available staff, 
the machine was shut down.
    FAA needs to issue a rule or order on screening checked 
baggage and set a minimum usage level on the number of bags 
screened. The current guidance of ``continual use of the 
machine'' is too vague. I think we ought to be, on average, 
requiring the screening of 125 to 150 bags per hour. These 
machines are certified to do 225, and I think that is about the 
only way to ensure continuous use. If there were 125 bags 
available, we ought to be requiring that many, on average, per 
hour.
    They need to work towards 100 percent screening of checked 
baggage and cargo, but I would like the Committee to know that 
the present approach of putting these machines in lobbies of 
airports is not the way that you will ever get there. The 
machines will have to be integrated into the baggage systems of 
the carriers, which is going to require some construction in 
the basements of the terminal buildings and so forth. But just 
putting the machines around the lobbies will result in an 
inefficient process. I do not care how many machines we come up 
with, it is like running the bags through a baggage system 
twice, once through the security machine, then once through the 
regular baggage system.
    The second area is issue the final rule on certification of 
screening companies to improve the screening of passengers, 
baggage, and cargo. The rules for this should have been out in 
March 1999. FAA was prepared to issue them on September 10. I 
think they are still on hold, pending recommendations of the 
Secretary's rapid response teams. Once issued, though, those 
rules will serve as a baseline for performance, which is 
exactly what Senator Thompson is referring to. Whether 
screeners are Federal employees, contract employees, or some 
mix of the two, you are going to need performance standards no 
matter what. And if the screeners, be they Federal or contract 
people, will not perform and meet those standards, they ought 
to be terminated.
    The third area is strengthening controls to prevent access 
to secure areas of the airport by unauthorized individuals. We 
will be doing testing in this area over the next several weeks. 
Testing in the past, before September 11, showed weaknesses. 
Since September 11, FAA has closed a lot of the access points 
to the secured areas (by secured area, I am referring to access 
to the runway area or to aircraft).
    The fourth area is criminal history checks for everybody, 
meaning all employees of all airports, not just new employees 
at the top 20 Category X airports. I think there is a rule 
about to come out from FAA on that particular subject.
    And finally, cargo security. We recently completed a 
follow-up audit of FAA's cargo security program and briefed FAA 
on our results. FAA took action to strengthen that program 
since September 11. I cannot go into all the details here, but 
basically, they no longer allow people that are known as 
``unknown shippers'' to ship cargo.
    We think additional action is needed for a group of people 
called ``indirect air carriers.'' Essentially, an indirect air 
carrier is a freight forwarder that is known to FAA and gets 
freight and packages from other people, consolidates the 
shipment, and then puts it into stream of commerce into the 
cargo bays of aircraft. So that is one area where I think 
additional attention is needed.
    I would just like to close by saying that it is very 
noteworthy that the Senate bill has a reference in it to the 
Government Performance and Results Act, which had its origins, 
I believe, in this Committee----
    Chairman Lieberman. That is right.
    Mr. Mead [continuing]. And its companion committee on the 
House side. This is an opportunity for the real world 
application of that statute. Thank you, sir.
    Chairman Lieberman. Thanks very much, Mr. Mead.
    We will begin the questioning now and we will give a few 
extra moments to our colleagues who did not make opening 
statements so they can do that during their time for 
questioning.
    Mr. Mead, I particularly appreciate your focus on the bomb 
scanning machinery. Because of the unevenness here and your 
previous statement on the House side that I have read earlier 
in October, it struck me, particularly the part that the FAA's 
goal, which is to screen 100 percent of the checked baggage, 
seems like, obviously, a worthy goal, but at that time, it was 
not going to be fully phased in until 2009. Mr. Mead, you 
testified in the House that the goal assumes the replacement of 
all machines deployed through 2006 with a faster, cheaper 
technology.
    So my question is, does this mean that the goal of 100 
percent screening cannot be achieved with current technology, 
and obviously more urgently, my question both to Mr. Mead and 
Ms. Garvey is, how can we speed up that process now so that 
well before 8 years from now, we have 100 percent screening of 
checked baggage?
    Mr. Mead. Well, I would counsel moving out on two fronts. 
First, you are not going to get there overnight, although it 
would be nice to get there overnight. In our opinion, going to 
100 percent screening of checked baggage, it would be 
appropriate to set a statutory target of 2004.
    In the meantime, we have all these machines we have already 
purchased. We still have them in line and they are still being 
produced, so we want to put them in the lobbies and get them 
used while we are transitioning to 100 percent checked baggage. 
I alluded to what, in our opinion, was required to accomplish 
that: The FAA needs to come up with a rule, and it needs to 
enforce how many bags will go through screening.
    As to going to the 100 percent, there are different 
approaches in terms of what machines to get, but in all 
scenarios, you will have to put the machine in line with the 
regular baggage system. That will require a lot of work at the 
nearly 400 commercial airports around the country.
    There is one construct where you use two machines and you 
put them in the baggage line. The first machine does sort of a 
pre-screen and has a rapid flow-through.
    Chairman Lieberman. Do these machines screen just for 
explosives or do they also screen for weapons of other kinds?
    Mr. Mead. The machines automatically detect explosives, but 
they also detect metal objects such as guns and knives.
    Chairman Lieberman. Let me get Ms. Garvey in here and ask, 
just for information, is there any screening of checked baggage 
for other dangerous material, weapons, for instance, that might 
be in the baggage?
    Ms. Garvey. Explosives really are the focus for the EDS 
machines. Just to pick up a little bit on what Mr. Mead said, I 
think there are three issues in terms of meeting a more 
aggressive schedule. One is funding, and a steady stream of 
funding. The second is site preparation, because these are very 
heavy machines. You have to often reinforce the floors, etc. 
Mr. Mead spoke about retrofitting that may need to be done. And 
the third is what the manufacturers actually can produce.
    Congress has answered the first question extraordinarily 
well. I mean, the funding seems to be there, and from all 
indications of what we have heard, it is going to be there.
    Chairman Lieberman. That is true. In our amendment, we did 
include authorization to use monies from the Airport 
Improvement Program----
    Ms. Garvey. That is right.
    Chairman Lieberman [continuing]. For the acquisition and 
conversion of locations for these bomb scanning devices.
    Ms. Garvey. Yes. And in terms of site preparation, we have 
laid out where we think they need to go, where the next most 
critical machines will be needed. There is some site 
preparation and work that needs to be done, but I think 
airports are poised and ready with us to move very quickly in 
that area.
    The third is probably the most challenging of all, and that 
is what can the manufacturers produce. There are currently two 
manufacturers that are certified. One has machines that are 
very well accepted by the airline community and they are 
certainly being used and out there. But how many those two 
companies can actually get into production is a challenge. They 
have said they will ramp up. They have said they can meet a 
schedule that would be much closer to 2004. I know yesterday, 
Secretary Mineta met with one of the manufacturing companies 
and was really challenging them to see if there were other ways 
that we could----
    Chairman Lieberman. A way to do it sooner. So right now, 
the earliest we are going to get 100 percent screening will be 
2004?
    Ms. Garvey. If we look at what the manufacturers are 
currently saying. But again, we will deploy them as quickly as 
they come out. We are ordering them even in anticipation of the 
money.
    Chairman Lieberman. What percentage do you think we are at 
now? In other words, what percentage of baggage or flights are 
now covered by bomb detection equipment?
    Ms. Garvey. That is a question that it probably would be 
best to get back to.
    Chairman Lieberman. Fine.
    Ms. Garvey. I know it is certainly significantly higher 
since September 11 because we have required air carriers to 
apply CAPPS to all passengers, so that means the number is 
higher.
    Mr. Mead. You are not close to a double-digit number. You 
are not close.
    Chairman Lieberman. We are in single digits as to what 
percentage of baggage checked on the planes is screened for 
bomb detection?
    Mr. Mead. Yes, sir.
    Chairman Lieberman. That is really stunning. I did not 
realize it was that low. Let me ask, then, what the current 
requirement--for instance, I was quite surprised to see in the 
news coverage of the accident on Monday that American Airlines 
terminal at JFK has no bomb scanning equipment. Are they not 
required to have any?
    Ms. Garvey. There are EDS machines at most of, and again, I 
am reluctant to give a lot of the numbers, but most of the 
larger Category X airports. There are machines in those 
airports. The challenge in a place like JFK is, was it at the 
exact American checkpoint location. So that is one of the 
challenges.
    Chairman Lieberman. Is there any requirement on the 
airlines now?
    Ms. Garvey. We have a rule that was ready to go right 
before September 11, but frankly, it was geared towards a much 
later date for having EDS machines screen 100 percent of 
checked baggage. We obviously are revisiting that, and the 
question of whether it is 2004 or can be even sooner is 
critical. But it is definitely a requirement that I think the 
airlines and the public is anticipating.
    Chairman Lieberman. My time is up, but how long have we had 
any requirement for the bomb detection equipment?
    Ms. Garvey. We have had it in place----
    Chairman Lieberman. Because it is a long time, obviously, 
since planes were exploding, going back to the 1970's for fear 
of bombs on the planes.
    Ms. Garvey. Lockerbie and then the concern over TWA really, 
I think, generated the----
    Chairman Lieberman. Lockerbie, I guess, was 1988, I think.
    Ms. Garvey. I cannot remember the time, Lockerbie.
    Chairman Lieberman. Late 1988, I believe that is right. Is 
that when the requirement began?
    Ms. Garvey. I think TWA generated the most interest in 
really getting the equipment out there. A lot of the equipment 
has been around about 10 years.
    Chairman Lieberman. Yes. I mean, this is another classic 
example of how we all sort of pull back after the initial 
period following what we suspected and in one case certainly 
knew was a terrorist attack on a plane. We pulled back from 
pushing to require the airlines to put this equipment on board, 
and obviously we cannot let that happen anymore.
    Mr. Mead. No. That is another reason why this legislation 
is so urgent, because under the current construct, it is 
discretionary with the airline whether it accepts a machine or 
not.
    Chairman Lieberman. Right.
    Mr. Mead. The corollary to that is one reason why there has 
also been resistance to a mandatory figure on how many bags 
ought to be put through the machine.
    Chairman Lieberman. Yes. My last word here, but bottom 
line, that is another indication that security for the airlines 
for too long has been just another cost of doing business. In 
other words, it has not been isolated as a priority. I say that 
respectfully. So if you are pressing to produce a good 
quarterly report for your shareholders, unfortunately, that is 
going to be one item that is going to fall down on your 
priority list unless you are required by law or regulation to 
do it, and that is why I think the Senate bill moves in this 
and other ways in the right direction.
    I am sorry I took a little extra time. Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman. You know, it 
seems to me that what is happening in the airline industry and 
what is happening with the Department of Transportation is 
indicative of what is happening throughout the entire 
government, two things. One, we are improving our planning, and 
two, we are getting worse in our performance.
    If you look at the Department of Transportation, I think 
you would have agreed--we on this Committee who look at all 
these things--that the Department of Transportation has some of 
the best outcome-oriented goals in terms of the goals that they 
set forth as required by the Results Act, GPRA, that you 
mentioned, Mr. Mead, really good goals as to what we need to 
accomplish. But yet we see in terms of the screeners, for 
example, the results have been getting worse for a decade, have 
they not?
    Mr. Mead. Yes.
    Senator Thompson. And with all due respect to the 
compromise I understand that is being attempted, the results 
for the smaller airports are worse than the results for the 
bigger airports, are they not? I think I recall that. Somebody 
is shaking their head affirmatively back there. We will take 
their word for it. [Laughter.]
    But I think the record indicates--I mean, I was struck by 
that when I looked. It has been a little while since I looked 
at that, but I think you will find that that is the case.
    And the Department of Transportation is quite candid in its 
report of the year 2000 results. It says DOT did not meet this 
year's performance targets. Then you look to see what they are 
doing. Well, they purchased new machines, awarded new contracts 
for baggage checks, awarded grants, and conducted regional 
assessments. Somebody has got to follow through in order to get 
the job done. You can have good plans, good goals, and so 
forth, but when you are not meeting those goals, you do not 
just come back next year and say, we did not meet them again, 
which is what we do up here. We watch this all the time in 
every department.
    There are no consequences to bad performance anywhere. 
Usually, you get some kind of a budget increase. We do not do 
it, but they go before the Appropriations Committee and there 
is no tie-in between performance and budgeting.
    So, clearly, now we have got an absolute disaster on our 
hands, so maybe this is, Mr. Mead, as you say, a way to get the 
foot in the door and maybe it will not take disasters in every 
department in government to make some progress here. But how do 
we move from having good goals and good intentions and good 
ideas, and between the two of you, you have laid out an 
additional 30 or 40, probably, things we need to do, but what 
happens when we do not do it? All of these terrible things that 
have happened in the last few days in terms of the meat 
cleavers and the mace cans and all violated some rules. We had 
the rules in the charge of companies that have been cited time 
and time again, fined in some cases time and time again.
    I guess I am touting my own pet horse here again, but 
clearly, is it not clear that we have got to have some 
consequences for bad performance? Somebody has got to take 
responsibility. Somebody has got to hold the right people 
accountable. Some people need to be promoted and rewarded and 
some people need to be fired and some people need to be fined.
    Mr. Mead, getting to that point, we see where some of these 
security firms have been fined, some airlines have been fined 
and so forth, but I am wondering in terms of aviation security 
and passenger security, we all want to get along and say nice 
things about each other here, but accountability has got to go 
all the way to the top. How is the FAA doing? I know they are 
doing better. We are all doing better since September. But over 
a period of time, in terms of their relationship to the 
airlines and so forth, in terms of watching the planning go up 
and the performance go down, what is your assessment of the FAA 
as they try to get a handle on this?
    They point out in the report some of these things do not 
look as good after the fact, but this report in March 2001 FAA 
puts out said we have got to take into account the speed of 
processing passengers and baggage through screening checkpoints 
and other security measures must improve to accommodate the 
rapid growth in passenger traffic. So before September 11, one 
of the things we were concerned about, passenger traffic is 
picking up. We have got to speed up. And these challenges must 
be met while protecting civil liberties. Well, we are all 
concerned about that. But those were the kinds of things that 
were on our mind before September 11, and rightfully so.
    But in terms of priorities and in terms of accountability, 
what has the FAA been doing with regard to all of this? We hear 
that sometimes the airline industry has too much influence. We 
know they are all in trouble financially. Nobody wants to 
unduly burden anyone. We also hear that sometimes they get 
caught in negligent conduct and it takes forever to process a 
claim and they continue on with the same practices while they 
get their lobbyists to come up here and talk to us and the FAA 
and everyone else.
    Straighten us out a little bit about that. What is your 
candid observation over the years as to what has been going on 
there?
    Mr. Mead. I think the Senate and House bills both have it 
right on the security function per se. It is a tall order for 
FAA, whose principal mission is the safety of aircraft, safety 
of air crews, and running the air traffic system. FAA is not 
fundamentally a security agency. I think there are a lot of 
competing missions there, and that is why I think it is a good 
idea that you have an entity that is dedicated to, focused on 
security, where they do not have to balance and juggle and all 
these other competing values.
    Second, last year, our office with the Justice Department 
did pursue the case against one of the security firms, the one 
that got a $1 million fine plea, criminal plea agreement. At 
the time that case came out, it got very little attention here 
in the Congress, frankly, in the Department, or even in the 
news media. Certainly in Philadelphia, it got pretty extensive 
coverage. Now, I would wager that 90 percent of the Congress is 
aware of that case, maybe 100 percent.
    So, with all respect, I think it is important that Congress 
take issues like this Government Performance and Results Act 
and have hearings on it, on the important things. It keeps the 
pressure on, keeps the focus on the important issues.
    And finally, the airlines have been subjected to fines for 
security violations, but I think they have been the cost of 
doing business. When we go to this new system, I believe we are 
going to have to be very firm. When people do not perform, 
there have to be consequences, as you say, and sometimes it 
takes a wake-up call like September 11 for people to realize we 
have to really be firm here.
    Senator Thompson. My time is up, but is what you are 
saying, the FAA is not established or set up or equipped to 
crack the whip in terms of security? Ms. Garvey may want to, of 
course, comment on that, too.
    Mr. Mead. I will defer to Administrator Garvey.
    Ms. Garvey. Well, I think, Senator, the role that we have 
played in terms of the screening companies is essentially 
through the airlines. The airlines hire the screening company, 
and frankly, from my perspective, one of the most frustrating 
elements since September 11, in particular, is to see those 
violations and know that legally, the only immediate things 
that we can do are to close a concourse, or close down the 
operation. You hate to do that for passengers. People are 
traveling. You want to serve customers and serve the public. 
But we can close the concourse, take an immediate action, and 
we have the ability to fine. We have fined in ever single case. 
But, as Mr. Mead has suggested, to some degree, that is the 
cost of doing business.
    So the direct Federal control and management to be able to 
do just exactly what you are saying, set the standards and then 
take the right action, set the pay level, and put training 
programs in place. We, meaning DOT, the FAA or, more 
appropriately, another agency can do all of that. I think it 
does make sense, as Mr. Mead has suggested, to have an agency 
who has a single combination of security and law enforcement 
ability.
    But I think we have taken the law as far as we can. We have 
put the civil penalties in place. If it is a safety action, by 
the way, and a civil penalty has to be levied, even with due 
process, you can keep something shut down until that due 
process continues. If it is not a safety action and we feel it 
has been corrected, then it does have to go through the due 
process, but it can be a very frustrating and long process, as 
you have suggested.
    Senator Thompson. Thank you very much.
    Chairman Lieberman. Thanks, Senator Thompson. Senator 
Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    First, I want to thank Ms. Garvey and Mr. Mead for being 
here. You have done a great job since September 11 in your 
capacity at FAA and as Inspector General in helping us to 
understand the problem and to address it.
    Ms. Garvey, when I met with pilots and flight attendants in 
Chicago, Illinois, shortly after September 11, one of the 
things they brought to my attention was the lack of dialogue 
between the FAA and the pilots and flight attendants who were 
on the planes and clearly on the front line when we talk about 
safety in the air. Has that changed?
    Ms. Garvey. I think it has changed very definitely. As a 
matter of fact, as a result of our conversation, we have had a 
couple of meetings that have occurred since that time. In 
addition, as I mentioned, we have received some very specific 
suggestions from the flight crews. Some, we have implemented. 
Some, I think we really need to have even more discussions and 
move out on.
    The unions have also suggested, which I think is an 
excellent suggestion, naming representatives from their 
organizations that we can work with on a regular basis as we 
move forward with some of these initiatives. I mentioned 
earlier we have a meeting this afternoon with one of the 
pilots' unions that we have not had a chance to meet with and I 
am looking forward to that and know there will be lots of other 
discussions, as well.
    Senator Durbin. Thank you.
    Mr. Mead, when you talked about the people who were 
operating the detection devices for explosives and baggage and 
working 15 to 20 hours, like the screeners, are these also 
airline or contract employees of airlines?
    Mr. Mead. Yes, sir, contract employees.
    Senator Durbin. Let me raise an observation based on an 
experience of a television station in Chicago. This television 
station, the FOX station, sent one of their reporters to the 
Argenbright training course. Several things occurred during the 
course of her training which really raised some serious 
questions.
    First, they did a background check, but they did not 
complete the background check until she had gone through 
training. I do not think you have to go to the FBI Academy to 
understand that is backwards. You would not want to put someone 
through training who is a security risk so that they understand 
how to defeat the system. That is exactly how Argenbright was 
doing it.
    Second, if I am not mistaken, the FAA rules require 12 
hours of training for these screening employees at the current 
time. That is being debated as to changes. Several hours of the 
12 hours of training were spent on appearance and dress, as 
well as trying to interest these prospective employees in 
buying insurance policies and bail bond cards. That does not 
strike me as really directed to the question of airline and 
airport security.
    This young woman came back from the experience and said 
that she felt that they were woefully unprepared to take on the 
responsibilities at the screening station. All of these things 
occurred long after September 11. At the time, Argenbright had 
been paying $6.75 an hour. I think they are up to $10 an hour 
at O'Hare, but still, we find all of these lapses.
    If you have the power to put the rules in place to make 
this training meaningful--Mr. Mead has raised the question in 
his testimony--why has the FAA not done that?
    Ms. Garvey. That is a very fair question and one we have 
looked at and asked ourselves since September 11. First of all, 
the rule was ready last March, and as I think I have had a 
chance to say to some of you, we had actually scheduled 
something with the Secretary on September 21 because it was a 
rule that was very important to him.
    But one of the considerations for us right now is really 
seeing what is going to come out of the legislation. For 
example, we may not need a rule. We may be able to do these 
things without putting a rule in place, but just do them as the 
Federal Government. For example, we would not need a rule to 
establish the right kind of training. We could just do it.
    So we have got it ready. We are ready to go. Again, I think 
it speaks to the urgency and the importance of this 
legislation.
    Senator Durbin. Let me go to another aspect and that is 
background checks and let me ask you where we are today. Have 
we done background checks and reissued identification to all 
employees that have access to ramp as well as to any aspect of 
the airplane?
    Ms. Garvey. Well, right after September 11, Senator, we did 
require that the airlines and airports revalidate all of their 
badges, issue new badges if they needed to. We required that of 
both the airlines and the airports. We also asked them to match 
their employees against the watch list, and they are doing that 
on a continual basis because the watch list has changed several 
times since September 11, as you would expect.
    But we are also, as the Inspector General indicated, 
getting ready to issue a rule within the next day or so, really 
within the next couple of days, to require criminal background 
checks of all of those people who are within the secured area. 
Congress, in 2000, passed legislation that allowed us to do 
that at Category X large airports for new hires. We are sort of 
pushing that a little bit further and requiring it for all 
employees, not just the new hires, and also we will be 
expanding that to the smaller airports. We understand from the 
smaller airports, they are eager to take this on.
    Senator Durbin. So currently, we do not have a background 
check mandated on all employees who have access to the 
airplane, on the ramp or otherwise?
    Ms. Garvey. For the large airports, the legislation called 
for year 2000, right, and 2003 for the smaller ones.
    Senator Durbin. So it is only at the smaller airports where 
the criminal background checks are not taking place?
    Ms. Garvey. We are pushing for the new hires, that is 
correct. It is only new hires, I want to be clear about that. 
What our rule would contemplate is expanding that to not just 
the new hires, but be all employees who have access to that 
secure area.
    Senator Durbin. Do you have any knowledge as to the cost of 
these explosives detection devices that we have talked about?
    Ms. Garvey. Senator, they are about $1 million a machine. I 
will say that we are testing and looking right now at a machine 
that is smaller that would probably be more appropriate for 
some of the smaller and mid-size airports, and while it is 
still just in development stage, that may be a machine that 
would cost less than $1 million.
    Senator Durbin. Any idea of its cost?
    Ms. Garvey. I think they are anticipating it would be about 
$300,000 to $500,000.
    Senator Durbin. Thank you. Thanks, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Durbin.
    Ms. Garvey, are people applying for work at the airports 
and those who are there now being cross-checked with watch 
lists?
    Ms. Garvey. Absolutely, and that, again, is occurring 
almost weekly because every time the list changed, the airports 
and the airlines go back and run their employee list again for 
validation and for matching.
    Chairman Lieberman. So it is not just criminal backgrounds, 
but anybody who turns up on an FBI or----
    Ms. Garvey. Correct.
    Chairman Lieberman. OK.
    Mr. Mead. But there is an important clarification there. 
The watch list is a list of names.
    Chairman Lieberman. Right.
    Mr. Mead. The reason the rule needs to come out that 
Administrator Garvey is referring to is because with respect to 
existing employees, the revalidation of ID cards that she was 
referring to----
    Chairman Lieberman. Yes.
    Mr. Mead [continuing]. We do not presently require a 
criminal background check for existing employees at the 
Category X (high-risk) airports or at the smaller non-Category 
X airports. That is why this rule is so important. Using the 
watch lists alone is not enough, because these people do not 
always go by the name on the watch list.
    Chairman Lieberman. Yes, absolutely. Of course, that is 
another reason why some of the support for new technology is so 
important, so we can move to a point where we are using 
biometrics or retinal scanning or whatever it is to make sure 
the person is exactly who they say they are and then to check 
whether they are on a watch list.
    Senator Voinovich.
    Senator Voinovich. Yes. I would like to make an 
observation: One thing that I have noticed that has not changed 
is the availability of personnel and machinery to do the 
screening.
    Ms. Garvey. A challenge.
    Senator Voinovich. I know it is important. People have to 
be patient. But there are people right now in this country that 
are calculating the time it takes to get to the airport, wait 
in line, get on a plane, get off and deplane and so on, and 
they are figuring the hours out and many of them are deciding 
not to fly and go by automobile.
    Ms. Garvey. Right.
    Senator Voinovich. I think that is something that you ought 
to be concerned about and so should the industry.
    Ms. Garvey. Yes, very much so, Senator. As a matter of 
fact, last Thursday, we met with all of the airlines and met 
with the top 20 airports in this country. They all came into 
Washington and two assignments came out of it. One was to agree 
to a list of accepted items that you can travel with to resolve 
the consistency issue that you talked about, and we have got a 
brochure that is going to be coming out with the airlines and 
with the pilots, by the way, who did a lot of work on this with 
us. But it is an agreed-upon list of what you can travel with, 
and what you cannot travel with.
    And the second most important point from my perspective was 
to ask the airlines whether they have the resources to deal 
with open check points, and more ticket agents on duty. They 
are coming back to us with what resources they will have in 
order to meet the demands for the travel. It is very 
challenging, I know, to get some of the right personnel, and I 
know they have, as the Senator mentioned, a lot of financial 
issues. But we think opening those check points and increasing 
the number of ticket agents is critical and that is why we were 
so anxious to hire the 225 additional people from our 
perspective.
    Senator Voinovich. I have been concerned, and so have the 
Members of this Committee, with the human capital crisis that 
we have across the Federal Government, and Senator Thompson in 
his amendment exempted the people that would be doing the 
screening from Title V. Do you feel that exemption gives you 
the flexibility that you are going to need in the event that we 
federalize those screeners? Can you move forward and hire them 
and also manage them once they are on board?
    Ms. Garvey. Certainly from our perspective, it gives us the 
flexibility that would be needed. I do not know if Mr. Mead has 
any observations on that.
    Mr. Mead. The devil is sometimes in the details on these 
things, and people do say FAA has personnel reform and they 
have procurement reform. In the personnel reform section of the 
law, for a large group of existing FAA employees--basically, 
personnel reform said, you will not be any worse off under 
personnel reform.
    Some of the points that have been made in the hearing today 
would suggest that it is important to be able to remove people 
fairly quickly if they do not perform. So rather than just 
incorporating by reference the personnel reform authority for 
FAA, my advice would be to directly say what we want.
    Senator Voinovich. So you would go beyond that to give the 
government more authority--you need more authority, you think, 
to get the job done?
    Mr. Mead. Yes, sir.
    Senator Voinovich. OK.
    Mr. Mead. And I am the Inspector General. I cannot speak 
for the Secretary or the Administrator, but that would be my 
opinion as Inspector General.
    Ms. Garvey. Senator, I will go back and look at that 
language. I thought it actually was fairly explicit, but Mr. 
Mead raises a good point and we will certainly look at that.
    Senator Voinovich. That is real important.
    My understanding is that the airlines right now are in 
charge of the screening, is that correct?
    Ms. Garvey. That is correct.
    Senator Voinovich. So they hire a company to do the 
screening. Now, that company that they hire screws up. They do 
not do what they are supposed to do and that is discovered. Do 
you then have to bring that to the attention of the airlines 
and the airlines then get involved and deal with the company 
that they have hired to do the job? Is that correct?
    Ms. Garvey. I think that is fundamentally right. If there 
is an issue on site, we can take immediate action, and we have 
done that even before September 11. So you correct the action 
and take an action at site. But in terms of a penalty, the 
penalty is levied against the airline, so you are exactly 
right.
    Senator Voinovich. So it is against the airlines and then 
the airlines have to do something about the company?
    Ms. Garvey. That is correct.
    Senator Voinovich. To me, that is the primary reason why we 
ought to eliminate that and go to federalized screeners, 
because if they work for the Federal Government, you do not 
have to go to the airlines. Then they do not have to go to the 
company that is doing the work. If somebody does not do the 
job, they are working directly for you and you can discipline 
them and hold them responsible and not go through the Maginot 
Line in order to get something done. Is that correct?
    Ms. Garvey. Well, that is correct, Senator, but I do not 
want to get in trouble with my Secretary, who has been up here 
negotiating, I know, maybe slightly differently. But even if 
there is a company, we could--as long as we are directly 
controlling and directly managing, and to me, that is the 
critical piece. I think that the administration would suggest 
that----
    Senator Voinovich. But the company is working for the 
airlines.
    Ms. Garvey. As it is today, yes.
    Senator Voinovich. OK. And right now, we know that some of 
the airlines are in financial trouble. Some of them are going 
to go out of business. So we are in a situation where they are 
in trouble and we are saying, add more expenses on. It seems to 
me that we ought to get out from under that whole business and 
guarantee to the public that we are not going to have to go 
through the airlines and the companies to hold people 
responsible. Would you agree with that?
    Ms. Garvey. Well, I definitely would agree we need direct 
Federal control, direct Federal management. You are right. We 
have to eliminate the middleman, if you will.
    Senator Voinovich. The issue is this, that if you do not 
federalize the screeners and we go to a hybrid system, does the 
legislation that was passed give you adequate power to do what 
Senator Thompson talked about and hold people responsible?
    Ms. Garvey. Senator, we are assuming that whichever 
construct is finally voted on by the Senate, that we will and 
can and are already beginning to establish the performance 
standards, and the training that is necessary. If it is a new 
agency that implements that, we are going to be ready to turn 
that over so that that can be implemented very quickly.
    Mr. Mead. Under both the House and Senate bills, the entity 
that is created would have the authority to take summary action 
with respect to people that do not perform. Now, unlike the 
Senate bill, in the House bill, the President is given the 
discretion to contract, with private firms. Under that bill, 
though, those firms could also be removed if they did not 
perform.
    Senator Voinovich. Are they working for us or are they 
working for the airlines?
    Mr. Mead. They are no longer working for the airlines--the 
airlines are out of it.
    Ms. Garvey. They are working for the government.
    Mr. Mead. The contractor would work for the government. In 
other words, there would be a government contractor, not an 
airline contractor. And the provisions of the House bill do 
strongly suggest that you would not be in long protracted 
disputes with the contractors if you wanted to get rid of them 
if they did not perform.
    Senator Thompson. The problem, I would interject here, 
everybody agrees, whatever government you are a part of or in 
private industry, if you are not performing, you ought to be 
dismissed. The question is, what is lack of performance? What 
are the standards? Who is going to decide? That is what our 
bill does and the House bill does not do. It takes it to its 
logical conclusion. It does not just say, if you do not 
perform, you are gone. It sets out what the standards are and 
it requires the employees to sign on to that and to agree to do 
certain things, and if they do not, you have an objective 
standard there that is fair to the employee and can be 
determined before the event happens what is going to happen 
when someone is negligent.
    So I think that is the difference. We both have the same 
goal, but again, everybody agrees on that goal, always has, but 
we have not been getting it. I think that is what the Senate 
bill carries out that the House does not.
    Chairman Lieberman. Thank you. I must say, I agree with my 
colleagues on this question of responsibility, but as we look 
back, and again, all of us were painfully awakened by September 
11, the responsibility really has to go all the way up the 
line.
    When I go back to what you said before, Mr. Mead, that 13 
years after a bomb blew up the plane over Lockerbie, that less 
than 10 percent of the baggage going on airplanes in this 
country is screened for bombs is really just unacceptable. All 
of us are part of that mea culpa, I am afraid, including, 
again, the airlines for whom I am sure these machines were 
expensive, and so they are a cost of doing business and, 
therefore, among the various items in their priority list, the 
security of the traveling public went low.
    Senator Thompson. And we have a lot of machines we are not 
using, right? We are not utilizing them. Is that not correct?
    Mr. Mead. You are not utilizing them enough, that is right.
    Chairman Lieberman. Right.
    Senator Voinovich. Mr. Chairman, can I just make one point? 
One of the things that we have to point out in this hearing is 
that, overall, things are a lot better than they were before. I 
think that is very important to note, because there are people 
watching us right now and that should be mentioned.
    I have always understood that if I check luggage and then I 
do not board the plane, that they then try to identify whose 
luggage it was and remove it from the plane, and that was one 
of the deterrents against bombs. Is that correct?
    Ms. Garvey. That happens for many airlines. It does not 
happen for all.
    Chairman Lieberman. Not for all.
    Senator Voinovich. It does not? Well, I always thought that 
was one of the ways that you guarded against it. Now we have 
got a new dimension, that people are willing to commit suicide 
in order to achieve their goals.
    Ms. Garvey. Right.
    Senator Voinovich. But that is not a universal practice?
    Ms. Garvey. And I think another point, too, as we move 
forward, because as Mr. Mead says, EDS will not be in place at 
all airports tomorrow, is stepped-up use of the dogs. It is 
stepped up use of CAPPS. It is all of those things, more use of 
the trace detectors, continuous, and making sure that the 
airlines are all using the equipment that is out there. It has 
got to be a multiple, many faceted approach to this, and we 
have got to, I think, really hit it from several angles. Most 
important of all, getting the right information from the 
intelligence communities from the very beginning, can prevent 
some of these folks from even getting access to the system.
    Chairman Lieberman. Let us now go to Senator Cleland and 
then Senator Carnahan.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman, and Ms. 
Garvey, I have a lot of respect for you and Mr. Mead.
    I will say to my colleagues and to the public here that I 
have sat through hours since September 11 in dealing with this 
question of aviation security. I am on the Commerce Committee 
and the Subcommittee on Aviation and it was out of that 
subcommittee and out of that committee that came the Senate 
version of how to dramatically improve the checkpoints, over 
700 checkpoints at some 400 airports throughout America by 
federalizing, professionalizing, upgrading, paying for 
increased security on checked baggage. I will say, sitting 
through this hearing now almost 2 hours of length, I am more 
frustrated than ever.
    I think we are just missing the point. I have this powerful 
sense we are all sitting here fiddling while Rome is burning 
and while the American airline industry is crashing and 
burning.
    Over the last 2 months, five domestic airliners crashed and 
burned, killing all people on board. I think the American 
people, before they start flying again, are going to want to 
know that the U.S. Government is somehow guaranteeing their 
security. I do not think it is going to look to the airlines. I 
do not think it is going to look to a private contractor. I do 
not think they are going to look to some foreign-owned company. 
They are going to look to us and it is our responsibility to 
get it done and that is not happening.
    Now, I have heard the phrase Argenbright. I know Frank 
Argenbright. But he sold his company to a foreign entity. It is 
no longer owned by an American company. And that company 
continues to provide baggage claim security for 17 of the 20 
largest airports in America. That is unacceptable. That is a 
scandal, because, clearly, they provided baggage screening for 
Dulles and Newark, where two of the four hijacked planes 
originated. They also provide security, if you can call it 
that, for O'Hare, where we had that incredible incident happen 
in Chicago. This, despite a DOT investigation into Argenbright 
and fines and criminal complaints filed against them. I mean, 
they have had everything done to them but shot and they are 
still out there doing it.
    I look at Atlanta, the largest, busiest airport in the 
world. What do we have there? A Cleveland-based company called 
ITS, International Total Services, cited by Federal authorities 
19 times in the past 11 years, including two major violations 
since September 11, and they are still there. I am still flying 
in and out of there on Fridays and Mondays, God help us. They 
have filed for bankruptcy. How do you think that makes me feel? 
How do you think that makes all those people going through 
Atlanta and Hartsfield, feel?
    And what is the pay? The average is $7 an hour. They can 
get $7.25 if they go work flipping burgers, which requires 
substantially less training than what even they go through.
    I think continuing to allow the American people to rely on 
these contract baggage claim people is like letting the Boston 
strangler massage your neck. I think it is ridiculous. 
[Laughter.]
    They have a staggering--in Atlanta, that company has a 375 
percent turnover annually. You cannot even run a burger place 
with that kind of turnover.
    Now, let us face it. This is a scandal. It needs correcting 
and we need to get it done, and I think all the things you have 
said today about performance and accountability are correct. We 
have it in the Senate bill passed 100-0, and I think the Nation 
ought to know that it is not the U.S. Senate holding this up. 
It is the House of Representatives that came back with this 
God-awful contract situation one more time.
    I think it is a travesty. I think it is a national scandal, 
and I think that unless we get this good bill passed before 
Thanksgiving, where we normally have record travel on airlines 
in America, I think there is not going to be much travel on 
Thanksgiving Day, I am sorry to say.
    So I agree with Alan Greenspan. The best thing for our 
economy is to get people back in those seats, and I intend to 
be in one of them. Pray for me, because we continue to allow 
these baggage claim people out there to work on a contractual 
basis where nobody is accountable, where the FAA can do nothing 
about them. Nobody fires anybody. They just continue right on.
    I think unless we make a dramatic departure here and 
federalize this system, professionalize it, instead of sending 
them to charm school in Chicago, we ought to be sending all 
these baggage claim people to the Federal Law Enforcement 
Training Center in Georgia where all the Secret Service people 
and the Customs people go anyway. That is where they get their 
training. That is why they are professional and that is what we 
need.
    We need a domestic version of the Customs Service, and not 
run out of the Department of Transportation. We need it run out 
of the Justice Department, like the Senate bill says. It is a 
law enforcement function that the U.S. Government ought to be 
responsible for and we ought to live up to that responsibility 
right now, because the American people are depending on us. 
They are not depending on the airlines anymore and they are not 
depending on some foreign corporation to contract out at 
minimum wage. I just feel that way.
    Now, I want to put you on record, Ms. Garvey. Do you or do 
you not support the Senate bill?
    Ms. Garvey. Oh, Senator----
    Senator Cleland. Well, I mean, a thousand people have lost 
their lives. They have crashed and burned in five airline 
incidents over the last 2 months. Now do you not or do you 
support the Senate bill which we passed 100-0?
    Ms. Garvey. I know you did, Senator, and what I do support 
is strong Federal management, strong Federal control, and I 
certainly support passing it as quickly as we possibly can.
    Senator Cleland. Mr. Mead, do you or do you not support the 
Senate bill, passed 100-0 by this Senate?
    Mr. Mead. I would recommend some revisions to it. I do not 
want to take a position on this federalization of screeners. 
That is above my pay grade. I would just say that, 
categorically, whatever you do, you need to have, in my 
judgment, a law enforcement presence at every screening station 
at every airport in the United States. That law enforcement 
presence, that person, ought to be a Federal employee.
    I do not think you need to have every screener be a 
policeman. If you want to make them all Federal employees or 
contractor people, I just think you need to have very powerful 
standards which I have tried to make in my testimony today. I 
am not going to go out and substitute my judgment for yours on 
that.
    I think in the Senate bill, there is a big issue. In the 
House bill, there is a big issue in the placement of this 
function.
    Senator Thompson. On what?
    Mr. Mead. On the placement of this function. The Senate 
bill places some functions in the Department of Transportation 
and other functions in the Department of Justice. The House 
bill places the functions in the Department of Transportation. 
The Senate bill creates something called a Deputy Secretary for 
Security, yet the function is placed in the Justice Department.
    I think a good case could be made for the placement of this 
entire function in the Department of Transportation, because 
this is a multiple issue. It is not just an aviation issue. 
That would be one area I would recommend you consider changing 
in the Senate bill, Senator Cleland. But I am not going to get 
into the issue on substituting my judgment for yours, sir.
    Senator Cleland. Thank you very much. Thank you very much, 
Mr. Chairman.
    Senator Durbin [presiding]. Thank you, Senator Cleland. 
Senator Carnahan.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman. I am extremely 
pleased that we are holding these hearings today because I 
believe it is important that we continue to shine the spotlight 
on airport security until we see that some significant 
improvements are made.
    I am very proud of the work that the Commerce Committee has 
done, under the leadership of Chairman Hollings and Senator 
McCain, to draft airline security legislation. The committee 
reported a bill that I believe will greatly enhance aviation 
security in this Nation. The bill ultimately passed the Senate, 
as you know, unanimously.
    Congress has for years been hearing about the problems that 
exist in our aviation security system, and a multitude of 
people, including the Inspector General of DOT, the GAO, and 
others, have warned about the dangers associated with poorly 
trained and underpaid baggage screeners. The Senate legislation 
that we have been talking about here today addresses the 
shortfalls made by making the Federal Government directly 
responsible for the screening of airline passengers and their 
baggage.
    No Senator offered an amendment to allow private screeners 
to continue operating at our Nation's major airports. The bill 
passed 100-0. I believe that it is precisely this shift in 
responsibility for passenger screening that will have the most 
profound impact on improving the safety and security of our 
aviation system.
    The events of September 11 demonstrate quite convincingly 
that aviation security will forever be linked with national 
security. Passenger safety can no longer be left to private 
screening companies who are not accountable to the American 
people. The Federal Government does not contract out the work 
of Customs agents, of Border Patrol, of Secret Service, or of 
Capitol Police, nor should we contract out the work of 
protecting the safety of the American flying public.
    I hope that the conference committee will conclude its work 
expeditiously so that we can meet our responsibility to provide 
a safe and secure aviation system.
    Administrator Garvey, I would like to return to a question 
that we were talking about a little earlier, the screening of 
bags. It dismays me that we are checking only 10 percent of 
those, and I know you indicated that was because we do not have 
the machinery to do that at this time. Between now and the time 
when we can get that machinery, are there things we could do to 
augment the screening of these checked bags? Would bomb 
sniffing dogs be a possibility? Would you comment on that for 
me?
    Ms. Garvey. Absolutely, and as a matter of fact, we are 
using part of the money that Congress has appropriated since 
September 11, the supplemental and so forth, for more of the 
bomb sniffing dogs. So that is a very important element.
    Using some of the trace detection equipment that is easier 
to use, more quickly implemented, is another piece of it. 
Ramping up the selectee program through CAPPS so that there is 
more screening, is important, as well as looking at more random 
screening of passengers and bags.
    So I think you have to look at a whole combination of 
issues between now and when all of the machines can be put in. 
And again, as the Inspector General and we rightly agree, 
making sure that all the machines that are out there are in use 
continuously.
    Senator Carnahan. Thank you.
    Mr. Mead, as you know, there have been a number of lapses 
in security since September 11. What efforts has your office 
undertaken in recent weeks to gauge the effectiveness of the 
new security measures that have been put in place?
    Mr. Mead. Well, we have sent roughly 100 of our staff to 
visit 58 airports around the Nation, and they made about 250 
extended observations of security. When we make these 
observations, people do not know who we are. We record what we 
see and we report that back to FAA. We do it in two different 
ways.
    One is that we sometimes see a situation where the screener 
or the security people are not familiar with the new 
procedures. For example, when you are wanding somebody and it 
goes off when you go down by the person's shoe, it may be going 
off because it is picking up something under the floor or it 
may be going off because there is a knife in the shoe. We try 
to make sure that the screener understands right there on the 
spot what they are supposed to do, in that event--take off the 
shoe or have them go somewhere else where you can screen them 
without the interference from whatever might be below the 
floor. So we are making a lot of on-the-spot corrections, and 
we are keeping track of those.
    There have been about 50 other instances that we have 
referred to FAA because, in our judgment, they are the types of 
things that need systemic correction. In other instances, we go 
to the U.S. Attorney. We have done that most recently in a 
fairly well publicized case. Right after September 11, we 
caught some people in Miami who were distributing fake ID cards 
for the airport, and those people were arrested. Those are the 
types of actions we take. We are keeping track of them, and if 
you would like me to come by your office and share the 
specifics with you, I would be glad to, but I would prefer not 
to do it in open session here.
    Senator Carnahan. How uniformly would you say these have 
been implemented?
    Mr. Mead. I would say, overall, there has been much 
improvement. But there are still alarming inconsistencies and 
you do not want to be caught up in one of those 
inconsistencies. So I think we need to aim for 100 percent.
    The use of EDS machines is the exception to that remark. I 
think they are woefully inadequate on the use of the explosives 
detection machines. So I would not put that in the category of 
greatly improved. I think there is a long way to go there.
    Senator Carnahan. Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Carnahan.
    Before I recognize Senator Levin, can I follow up and ask 
you, Mr. Mead, what is the percentage of utilization now of 
these machines? You made a point in your testimony that we 
could expect as many as 250 or 225 bags an hour to go through 
the machines, and you said currently, the percentage that are 
being checked for explosives was in the single digits.
    Mr. Mead. Yes.
    Senator Durbin. How much could we increase the inspection 
just by utilizing current machines to capacity?
    Mr. Mead. I think for the majority of machines you could 
probably quadruple it, and that is probably an understatement.
    Senator Durbin. Let me make sure that is clear on the 
record. You think it could go up as many as four times----
    Mr. Mead. Yes, for the majority of machines.
    Senator Durbin [continuing]. By using current machines to 
their capacity?
    Mr. Mead. Let me give you one example. My staff saw one 
situation where the screening company thought that they were 
continuously using the machine. They were doing maybe 14 bags 
an hour.
    Senator Durbin. And the capacity of the machine is?
    Mr. Mead. Two-hundred-twenty-five, but when you process 225 
bags per hour, you are going to get a lot of false alarms. If 
you take into account the time it takes to clear the false 
alarms, the operational real world experience, you are looking 
at around 125 or 150 bags an hour.
    Senator Durbin. Administrator Garvey, can you issue an 
order today or tomorrow to utilize these machines to their 
capacity?
    Ms. Garvey. We have already done that, and I think the 
challenge is to make sure that directive is being carried out. 
We have said that they must be used continuously. We have got 
500 agents in the field. They are looking at a lot of security 
measures. The 225 that we are hiring and in the process of 
hiring right now, their primary focus is going to be EDS, 
because we would agree with Mr. Mead that is an area that needs 
much more focus and more attention. The great majority of them 
are people with a lot of background in security, and I think 
they are going to be very useful in getting that number up.
    Senator Durbin. Would you agree with this conclusion that 
as many as four times the number of----
    Ms. Garvey. I am not sure.
    Senator Durbin [continuing]. Current bags being inspected 
might be inspected?
    Ms. Garvey. I would like to go back to that. I am not sure 
I would agree fully. I would like to look at that. I can tell 
you, I did look at the numbers last week from November 1 
through 7 just to see what we are getting for numbers. We are 
seeing about a 30 percent increase overall. That is certainly 
better. It is not, and I want to be very straight about this, 
it is not where we want it to be. It is not where the Inspector 
General wants it to be. It is certainly not where the Secretary 
of Transportation wants it to be. We are going to stay focused 
on that.
    Senator Durbin. Are you still limited by the airlines and 
the number of people that they will make available for this?
    Ms. Garvey. Resources have been an issue. Mr. Mead spoke 
about the alarm rate. If you respond to an alarm correctly, you 
have got to stop the machine, take the bag off, look at it and 
resolve what is in it. That may mean more resources and that 
has been an issue for them in some cases. But again, we think 
it is important enough that they just have to get the 
resources.
    Mr. Mead. Yes. Let me address the resource issue. Yes, 
there is a resource issue, if the truth be told in this. When 
you are putting these bags through the machine, and you get an 
alarm, you do not want to just keep going. You want to clear 
that alarm, which may mean that somebody has to open up that 
bag to see what is in it.
    If you take the person that is supposed to be watching the 
screen on the explosives detection machine and say, go rummage 
through this bag to find out if there is something in there, 
that is what he is doing while other bags are sitting on the 
conveyor belt.
    Senator Durbin. So it boils down to the same question 
again. How much money will the airlines put into these devices 
so they can be used more effectively, when we have a capacity 
to quadruple the percentage of bags that are currently being 
inspected? This is a classic, your money or your life, and as 
far as I am concerned, we cannot explain this any longer to the 
American people. We have to put the resources in to make it 
work.
    Mr. Mead. In the example I used in my testimony of the 
machine where the employee had been working for almost 20 
hours, that is not the employee's fault, but I do not think 
that employee could be alert. They did not have a replacement, 
so the air carrier shut down the machine.
    Senator Durbin. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. This is the area that I want to explore with 
you, too, of the checked baggage and EDS machines. You say you 
have entered an order now that says that all resources must be 
used to their full capacity?
    Ms. Garvey. They have to be used continuously, so they must 
always be used. Before September 11, they were used only for 
CAPPS selectees and that was a smaller number. We are saying, 
even if you do not have selectees, if you have got a machine 
there, you have got to be using it continuously.
    Senator Levin. Could you get us a copy of that order?
    Ms. Garvey. Absolutely, I will.
    Senator Levin. When was that issued?
    Ms. Garvey. Oh, it was probably 2 weeks after September 11, 
but let me double check on the date and we will get a copy of 
that.
  INFORMATION PROVIDED FOR THE RECORD BY ADMINISTRATOR GARVEY'S OFFICE
        On September 26, 2001, the FAA issued a Security Directive 
        rather than an Order. A Security Directive contains sensitive 
        security information and therefore cannot be publicly released. 
        However, we can say that through this Security Directive, we 
        required continual use of all explosives detection systems if 
        available.

    Senator Levin. What is the requirement on the airlines 
relative to that checked luggage? What is the current rule that 
you have issued?
    Ms. Garvey. Right now, there is not a requirement to have 
EDS. We had a rule that was ready to go, but we had as a date 
something that is very far out into the future, and since 
September 11, we have wanted to move that forward.
    In the past, particularly since TWA, Congress has 
generously appropriated $100 million every year. We have spent 
that and we have gotten a number of EDS machines out to the 
largest airports. The requirement for when airlines, or when we 
had to have the EDS's all in place, again, is subject to how 
quickly the manufacturers can move that date forward. So the 
latest date that we have been given--but again, I will mention 
that the Secretary has challenged the manufacturers to see if 
there is a way we can speed this up even further--was 2004.
    Senator Levin. And what is the date that was in the 
original rule that has now been----
    Ms. Garvey. Two-thousand-and-thirteen, approximately. I 
think there was one discussion, and I will tell you, it was 
still in discussion before September 11.
    Senator Levin. And the current date? Is there a date in a 
rule now?
    Ms. Garvey. Well, no, there is not a date in a rule.
    Senator Levin. That is what you are looking at?
    Ms. Garvey. Right now, we are looking at 2004. Before 
September 11----
    Senator Levin. But you have not yet issued it?
    Ms. Garvey. Right. We have not yet done that, no, and----
    Senator Levin. And when are you going to make that 
decision?
    Ms. Garvey. Senator, I think, in part, it is going to 
depend on what comes out in the legislation. Again, if it is a 
Federal responsibility, we may not need a rule. We may just 
make a determination we want to get them out as quickly as we 
can. Depending on what comes out in the legislation, we may or 
may not need the rule. We do know we want to get them out 
there. We do know that we have as a goal 100 percent screening 
for baggage and cargo.
    Senator Levin. And will we get this in place faster if the 
legislation requires that this be a Federal screen, a 
government screen?
    Ms. Garvey. I am not sure we would get it in place faster. 
I think getting the legislation in whatever form will get it 
moving quicker.
    The other point that the manufacturers have made, and I 
understand this, is the need to have a predictable stream of 
funding. Congress has been very generous, both before September 
11, but particularly since September 11, in making sure that 
the funding is there. That is critical, as well.
    Senator Levin. And this is not a requirement on the 
airlines, this is a requirement for public funding?
    Ms. Garvey. That is what it has been, Senator. We have paid 
for the machines. The operating and maintenance of it was the 
responsibility of the airlines.
    Senator Levin. And the personnel to run them?
    Ms. Garvey. And the personnel, that is correct, Senator.
    Senator Levin. All right. And so we would look for 
alternative sources of machines? We know there are only these 
limited sources?
    Ms. Garvey. There are two manufacturers, one that is very 
well accepted by the airlines, the other one that is certified 
by the FAA but has had some operational difficulties. An 
Inspector General team and the FAA team have been looking at 
that second manufacturer together and we have heard some 
promising news this week.
    Senator Levin. A final question. Are we sure that all the 
checked luggage that gets into an airplane belongs to someone 
on that plane?
    Ms. Garvey. Whether or not it is actually matched?
    Senator Levin. Yes.
    Ms. Garvey. Some airlines do this. Not all airlines do, and 
I know that----
    Senator Levin. Should we not require that be done by all 
airlines?
    Ms. Garvey. Well, that has certainly been one of the issues 
that we have been looking at and I know it is being debated in 
Congress. There are two sides to it. Some have suggested, yes, 
that would be a big help. Others have said, when you are 
dealing with suicide bombers, that may no longer be an operable 
assumption.
    Senator Levin. Do you have the power to do that by 
regulation?
    Ms. Garvey. We could do that through regulation and rule, 
yes, sir.
    Senator Levin. Pardon me?
    Ms. Garvey. Yes, we do have that power, Senator.
    Senator Levin. And are you going to exercise that power?
    Ms. Garvey. We are looking at that, but again, I think, 
also looking at some of the discussion that is occurring on the 
Hill right now.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Durbin. Senator Thompson.
    Senator Thompson. Yes, just a comment in listening to the 
testimony. I want to reiterate that this is not just a Federal 
or non-Federal issue. In fact, that may not be even the most 
important issue.
    I do not subscribe to the notion that if you go the 
contractor route, it is all bad, and if you go Federal, it is 
all good. It is more complex than that. As bad as the picture 
has been painted, it is even worse because it is more complex 
and more difficult.
    We need to understand, and I voted for the 100-0 bill, and 
I think it contains a lot of good provisions. I think you can 
make a very good case for everything Senator Cleland said, 
which I could not put it more eloquently myself.
    But we have been sitting here on this Committee over the 
years looking at the performance of the Federal Government. I 
put out a report in June 2001, when I still had access to the 
Xerox machine of the Committee---- [Laughter.]
    And it is called ``Government at the Brink.'' Just a 
summary here of the 10 worst examples of mismanagement. The 
``Big Dig'' in Boston, 525 percent increase from the original 
budget. Abusing the trust of the American Indians, the 
Department of Interior does not know what happened to more than 
$3 billion it holds in trust for the American Indians. There is 
widespread agreement that the Department of Defense finances 
are a shamble, wasted billions of dollars a year. It cannot 
account for that expense.
    NASA mismanagement causes mission failures, spectacular 
example after example. NASA has lost billions because of 
mismanagement. Because of the Mars lunar polar lander failure, 
for example, one team used English measurements--feet, inches, 
and pounds--to design the program, the vehicle, while another 
team used metric measurements.
    Medicare waste, fraud and abuse, billions of dollars every 
year. Security violations of the Department of Energy. The 
Department of Energy does not adequately safeguard America's 
nuclear secrets. In one case alone, an employee was dead for 11 
months before Department officials noticed that he still had 
four secret documents signed out.
    IRS financial mismanagement takes up to 12 years sometimes 
to record payments made by taxpayers. Veterans' affairs, put 
patients' health care at risk. The Department of Veterans IG 
found that a hospital food service shares the loading dock with 
environmental management services hazardous waste containers 
and dirty environmental management service and biohazard carts 
were located next to the area where food is being transported 
to the kitchen.
    Bilking taxpayers out of student financial aid, billions of 
dollars. A Los Angeles man collected at least $230,000 in 
fraudulent unemployment payments, set up nonexistent claimants. 
It was years before that was discovered, and on and on and on. 
This is just a summary of this report. It is all in detail.
    We have got to go past that. Whether we go Federal or non-
Federal, we have got to do things remarkably different than we 
have ever done before. It is not just as simple as passing this 
bill. We have got to have follow-up. We have got to have 
accountability. I do not know that one person was disciplined 
or fired for any of this stuff that I just mentioned. We have 
got to change that in order to have more secure airline 
service.
    Senator Durbin. Thank you very much, Senator Thompson.
    I want to thank Administrator Garvey as well as Inspector 
General Mead for your testimony. It has really helped us to 
understand the current state of airport security and what 
progress has been made. Thank you very much for joining us 
today.
    Senator Durbin. I would like to invite the second panel to 
come to the table at this point, Bruce Carter, who is the 
Director of Aviation at the Quad City Airport, Moline, 
Illinois; Jackie Mathes, a flight attendant with United 
Airlines; Marianne McInerney, Executive Director of the 
National Business Travel Association; and Duane Woerth, a pilot 
with Northwest Airlines, Air Line Pilots Association. Thank you 
for joining us.
    I would like to apologize in advance, but I am presiding 
over the Senate at one o'clock and I will stay with the panel 
as long as I can and Senator Lieberman will be returning very 
shortly.
    Mr. Carter, if you would be kind enough to summarize your 
testimony, which will be entered into the record in its 
entirety.

 TESTIMONY OF BRUCE E. CARTER, A.A.E.\1\ DIRECTOR OF AVIATION, 
                QUAD CITY INTERNATIONAL AIRPORT

    Mr. Carter. Good morning, Senator Durbin. Chairman 
Lieberman, Senators Thompson, Durbin, Voinovich, and 
distinguished Members of the Committee, I want to thank you for 
the opportunity to testify today on the concerns of aviation 
security at small hub airports.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Carter appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    The Quad City International Airport serves the citizens of 
Western Illinois and Eastern Iowa and has a cachement area of 
2.5 million people within 100 miles. We have access to seven 
different hubs by five different carriers. Our aircraft mix 
varies from Boeing 717's to Beech 1900's. We have been one of 
the fastest-growing airports in the country, with a 48 percent 
growth.
    One of the reasons for this is because of AirTran Airways 
to their Atlanta hub. They have provided our passengers with 
competitive air fares, and in turn, other carriers stay 
competitive with them. In fact, all of our air carriers have 
experienced growth and we were on track to enplane 400,000 
passengers for 2001, until the tragic events of September 11.
    What have the passenger declines done to our operating 
budget, which is about $7 million? We are experiencing about a 
20 percent decline in parking lot revenue, which annualized out 
to a $300,000 loss. We are experiencing a 40 percent decline in 
rental car activity. Rental car agencies, however, guarantee a 
monthly minimum, which could adversely affect their existence. 
In fact, yesterday, Alamo and National filed for Chapter 11 
bankruptcy. We are also experiencing a 15 percent loss in 
landed weight.
    We are trying to find creative ways to further cut expenses 
and can see layoffs in the near future. We just opened up our 
new $18 million terminal concourse and are not hiring the 
needed building maintenance and custodial personnel, and this 
puts added pressure and stress on our existing staff.
    What changes have we seen in airport security and what do 
we expect those costs to be if the FAA requirements continue? 
Before we were able to even open up our airport on September 
13, we had to tow 148 vehicles from our short-term and long-
term lots and we had to cut our ready car lot for our rental 
cars to abide by the 300-foot rule implemented by the FAA. We 
then had to post two employees at the airport terminal curb to 
ensure that no cars were left unattended. We hired a contract 
employee 24 hours a day, 7 days a week, at a cost of $300 a 
day. If that continues, that would cost $109,000 per year.
    In order to open our much-needed short-term parking lot, we 
hired another contract employee for a 12-hour shift at $204 per 
day. That would be annualized out to just about $65,000 per 
year.
    Our public safety department and our airport staff have 
accumulated $11,000 in overtime just in a 6-week period, and if 
this continues, it would result in over $95,000 in overtime, 
and that is assuming that there will be no more security 
requirements which require additional manpower.
    In late September, the National Guard was assigned to our 
airport and are only allowed to be present at the security 
checkpoint. It greatly disturbs me that our request for greater 
flexibility was denied. I cannot stress enough the need to 
allow our National Guard presence at locations other than the 
screening checkpoint, and many small hubs feel the same way.
    As of today, we have not been able to expand the duties of 
the National Guard at our airport. However, President Bush 
outlined on Friday the need for more flexibility by the 
National Guard troops and that is what airports have been 
waiting for and wanting for the past 8 weeks. I hope that we 
see additional troops there when I get back to work tomorrow.
    I am concerned with the discussions that are taking place 
that will continue to cost airports more money without 
additional revenue streams to offset these added expenses. As 
the cost per passenger increases at smaller airports, the 
airlines will consider their yield potential and profit margin, 
and I am concerned that they could eliminate service to many 
small communities.
    There are 437 primary airports in the United States. 
Primary airports are defined as an air carrier airport 
enplaning over 10,000 passengers. Of these, 50 percent of the 
airports enplaned less than 100,000 passengers. Smaller 
airports have much smaller staffs, and one small requirement, 
such as inspecting vehicles, has a much greater financial 
impact and burden than on larger airports.
    Requiring all airports to have explosives detection 
equipment installed for checked luggage will have significant 
operational and financial impacts, especially at smaller to 
mid-sized airports. Who will pay these initial and ongoing 
costs and who will be responsible? If the cost of the equipment 
is $1 million, it would not be unreasonable to expect the 
annual maintenance cost to be at 10 percent, or $100,000 per 
year. What happens if the equipment breaks down and there is no 
backup? Congressional leaders need to have answers for these 
questions, and we could talk for hours on other important 
security issues that need to be considered.
    I would like to briefly discuss the personnel that we have 
at our screening checkpoints. I feel our small hub airport has 
the same problems as large airports in hiring, replacing, and 
keeping personnel on the job. If the employees were paid a 
better wage and benefits package, would this reduce turnover 
and give us a better product? Does a $20 an hour employee do a 
better job than a minimum wage employee? We need to have these 
questions answered before we decide on screening point 
jurisdiction. Constant turnover causes problems in any type of 
business.
    I feel that the FAA civil aviation security personnel need 
to do a better job of communicating with the operators of our 
Nation's airports. It is not unreasonable to have an airport 
manager and their staff invited to regional headquarters to 
discuss the concerns of airport security. It is a way to get 
questions answered in a timely manner and helps to know what 
other airports are going through to enhance security.
    Communications is the key to success and it is our job to 
encourage people to get back into the Nation's skies. The 
airlines are doing their job in providing very reasonable fares 
and making the needed safety improvements to their aircraft. 
The FAA and airports need to do whatever it takes to provide 
the safest environment for all citizens that choose to fly. I 
hope Members of this Committee and other members of Congress 
will work to ensure that airports throughout the country 
receive the reimbursement they need to comply with the new 
security initiatives employed by the FAA.
    In closing, I would like to thank Senator Durbin for asking 
me to testify today. Senator Durbin has been a great supporter 
of our airports in Illinois and I have enjoyed my 10-year 
relationship with him. And I would like to thank Pat Souders. 
Pat has been always available to assist our airport with 
aviation concerns.
    Thank you again for the opportunity to let me share my 
thoughts with you today, and I would be pleased to try and 
answer any of the questions you might have. Thank you.
    Senator Durbin. Thank you, Mr. Carter. Marianne McInerney.

    TESTIMONY OF MARIANNE McINERNEY,\1\ EXECUTIVE DIRECTOR, 
          NATIONAL BUSINESS TRAVEL ASSOCIATION (NBTA)

    Ms. McInerney. Good afternoon. My name is Marianne 
McInerney and I am the Executive Director of the National 
Business Travel Association. NBTA represents over 1,500 
corporate travel managers for the Nation's Fortune 1,000 
companies who are in charge of over 70 percent of all the $190 
billion spent annually on business travel expenditures 
domestically, 46 percent which has traditionally been spent on 
air travel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McInerney appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    Monday's tragedy in Queens came at an already challenging 
time in our Nation's history. Now more than ever, the American 
public needs to be given confidence in our Nation's aviation 
system. As we begin to pick up the pieces and march towards 
economic and psychological recovery, it is critical for 
Congress to take every necessary measure to ensure the safety 
and security of our traveling public and the stabilization of 
our aviation industry.
    NBTA represents corporate travel managers and their 
companies that operate throughout the world. They are 
responsible for sending over 44 million travelers throughout 
our Nation's aviation system, who are, in turn, responsible, or 
at one point were, for 62 percent of all revenue to the 
Nation's carriers.
    By now, we all know that the terrorist attacks of September 
11 have created a tremendous amount of unease among the 
traveling public. Travelers have simply lost confidence in our 
Nation's skies, as well as our Nation's airports. In response 
to this uncertainty, immediately after the tragedy, many 
businesses dramatically curtailed and in many instances have 
permanently ceased employee travel. Currently, many companies 
are reducing travel between 30 and 50 percent.
    In an effort to represent our business travelers, we have 
worked diligently to stay on top of their thoughts and their 
comments as it relates to security within our Nation's 
airports. Over and over, we have gotten the same response: 
Please improve security before we are to get on planes.
    Improvement and standardization of security measures is the 
single most important factor in getting people to resume travel 
and restoring confidence in our aviation system. Seventy-one 
percent of our travelers have noted that federalizing the 
security process is extremely important for them to resume 
travel at previous levels.
    We are now at the 2-month mark since the tragedy. Our 
members and our travelers are still very frustrated. There is 
no consistency among airports and airlines even today under new 
rules. Frequent travelers are noticing different protocol at 
different check-in points and security procedures vary from 
airport to airport.
    Two weeks ago, I myself noticed the difference. At Reagan 
National Airport, I was asked to ID myself at every place 
throughout the check-in point. Last week at the very same 
airport, I was no longer asked for ID. My computer was not 
checked. No one was wanded. Two weeks ago, every third person 
on my flight was randomly checked. Last week, no one.
    However, as I went through the security process and watched 
my computer not being checked, a senior citizen right before me 
had his toiletries kit opened, his eyeglass screwdrivers 
removed, and his cuticle scissors taken away. There seems to be 
a big variation.
    As one traveler recently put it, I think at this point, it 
is just the luck of the draw. The same traveler reported a 20-
minute check-in procedure at L.A., but a 2-hour experience at 
O'Hare. Another traveler recently reported to us that the 
security check-in point at Dulles was extremely stringent and 
well done, although time consuming, but on her return from 
Portland, she observed completely relaxed security staff.
    A business traveler from Home Depot recently traveling from 
Reagan National was randomly wanded three times while sitting 
at the gate waiting to board a flight. She noted to us that she 
observed the alertness and immediate attention to bags that 
were no more than five feet away from their travelers, and at 
the same time, she had noticed on her flight in no security 
checks.
    At some airports, identification is not required for 
travelers as they pass through checkpoints while personal items 
are confiscated from others. Similarly, while other airlines 
are adopting the process of matching checked-in luggage to the 
names of passengers on board, it is not a uniform practice, as 
we have heard today. Similar inconsistent stories go on and on.
    My point today is simple and concise. NBTA, our members, 
and our frequent fliers are not seeing the necessary 
consistency in airport security. On TV and in the newspapers 
and even on the House floor, the traveling public is constantly 
being reassured that tighter security is in place. However, as 
we have been reminded by countless examples of inconsistency 
and failure to follow procedures, such a vast nationwide task 
simply cannot be coordinated and is still decentralized.
    Central to this issue is returning traveler confidence and 
the individual's perception of risk and behavior in light of 
those perceptions. By virtue of their frequently travelers' 
experience, business travelers get to witness this on a daily 
basis. Often, the traveler is the one who visits multiple 
cities in a single day and walks away with a completely 
different experience at every airport.
    Going forward in the near term, consumer confidence and 
real security improvements need to be the focus of the 
government. NBTA and its members feel that the only way to 
accomplish this is through the federalization of the airport 
screening process, implementation of new technologies, the 
screening and checking of all luggage, and the institution of a 
voluntary travel card to provide frequent travelers with the 
screening process that would apply to 6.2 million frequent 
travelers who account for 54 percent of all travel.
    We believe action such as this must be done swiftly. They 
must be held to a high degree of accountability. And we believe 
that it is only with the federalization of this system that 
travelers will return to the sky. Thank you.
    Senator Durbin. Thank you very much.
    Chairman Lieberman. Jackie Mathes, flight attendant with 
United Airlines.

     TESTIMONY OF JACQUELINE MATHES,\1\ FLIGHT ATTENDANT, 
           ASSOCIATION OF FLIGHT ATTENDANTS, AFL-CIO

    Ms. Mathes. Good morning, Senators Durbin, Thompson, and 
Voinovich, and Committee Members. My name is Jacqueline Mathes 
and I have been a flight attendant with United Airlines for 
nearly 29 years. I am a proud member of the Association of 
Flight Attendants, AFL-CIO, and I am here today representing 
AFA's 50,000 members at 26 carriers. I want to thank you for 
giving me the opportunity to testify at this important hearing 
on aviation security and I refer you to my written testimony 
for additional details.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mathes appears in the Appendix on 
page 93.
---------------------------------------------------------------------------
    I know firsthand from flying after September 11 and talking 
with my flying partners what aviation security is like today. 
We have all heard the horrific story of the security breach in 
my hometown of Chicago earlier this month. A passenger nearly 
made it on board with a number of knives, mace, and a stun gun. 
Luckily, a random search was conducted on this passenger, but 
only after he had successfully cleared the metal detectors. His 
checked luggage, which could have contained explosives, was not 
pulled off the aircraft. A similar situation happened 
yesterday, as Senator Durbin spoke to us about earlier.
    Those who want to slip weapons through the current security 
system will find a way unless we work quickly to change that 
system.
    Soon after September 11, the FAA issued new security 
directives. We believe these changes did not improve airport or 
airline security. They were merely window dressing. Flight 
attendants still believe there are far too many loopholes, 
large enough loopholes to allow for another terrorist attack on 
our airlines.
    Every day, we go to work to ensure the safety of our 
passengers. In the air, we are the firefighters, the law 
enforcement agents, the first aid responders, and the 
comforters to our passengers. On September 11, the 12 flight 
attendants on board United Flights 93 and 175 became the last 
line of defense in protecting the cockpit and passengers.
    Our lives and work have changed dramatically. Are we more 
confident in the safety of air travel since September 11? No. 
Do we believe that air travel can be safe? Yes, eventually, but 
much still needs to be done.
    Let me give you examples of how different life is today for 
flight attendants. What is most unnerving to me is that flight 
attendants now start each trip by discussing what we can use on 
the aircraft for weapons. We actually talk about breaking wine 
bottles to protect ourselves in case of a terrorist attack. 
Without any additional training from the airlines and working 
in a failed security system, flight attendants believe they 
must prepare themselves for any situation.
    On October 18, security screening at O'Hare found a small 
hotel sewing kit in my bag. The kit contained thread, a few 
sewing needles, and a small pair of sewing scissors. I had 
forgotten this was in my bag. It had been there for months. 
This was the first time any screener had seen it, and while I 
did not fault the screener for taking it from my bag, it is 
clear security screening is still inconsistent. Until this one 
screener spotted it, why was this overlooked by every screener 
on every flight?
    Other flight attendants report finding passengers with 
scissors, various knives, screwdrivers, razor blades, box 
cutters, and even knitting needles. Despite the fact that small 
nail clippers, and in my case a tiny sewing scissor, are being 
taken from crew members, passengers are managing to get on 
board with other potential weapons.
    In another example, one AFA member has been terminated and 
another is facing severe discipline after their flight was 
canceled following the discovery of a box cutter in the cockpit 
on the first flight out in the morning. When the flight 
attendants reported to the aircraft, there were already one FBI 
agent, five Boston police, and one representative from the 
carrier on board. The flight attendants were asked to help 
conduct a security inspection of the aircraft to make sure no 
other weapons were hidden on board, even though they had no 
prior proper inspection training.
    Given that the FBI seemed concerned, the crew was 
uncomfortable about taking the aircraft with the scheduled 
passengers and suggested they move to another plane. The 
carrier refused. The flight attendants were uncomfortable with 
the entire security procedure and expressed these concerns to 
their captain, who then elected to cancel the flight. The 
carrier is now disciplining these flight attendants simply 
because they were not confident in the security of the flight.
    Flight crews have seemingly been targeted for extensive 
searches by security personnel while passengers pass through 
security checkpoints without a second glance. Female flight 
attendants have been fondled and groped by male security 
guards. A female flight attendant passing through security at 
San Francisco airport was repeatedly rubbed over her body with 
a screening wand wielded by a male security guard. While we 
strongly recognize the importance of vigilant security 
screening to keep weapons from being brought on board aircraft, 
this behavior is unacceptable.
    AFA believes that Congress must move forward on the 
following recommendations. We must federalize the security 
screeners through the Department of Justice just as the Senate 
voted to do on its bill last month. Flight attendant training 
and procedures must be updated and include appropriate and 
effective responses to terrorism as it exists today, including 
self-defense training.
    Strict and defined limits for carry-on baggage must be 
enforced. The FAA's current guidelines are vague and not 
enforced uniformly by all carriers. Congress must take 
immediate action to ensure the safety and security of on-board 
supplies, carry-on baggage, and all checked bags by screening 
everything that goes on an airplane. In addition, the airlines 
must put 100 percent passenger baggage match in place 
immediately.
    While it is obvious we are screening passengers who have 
access to the aircraft, all persons who have access to secure 
areas and aircraft must be screened.
    Security personnel should be responsible for all cabin 
searches. Some airlines have given the duty to perform these 
searches to their fight attendants, who are not trained for 
these cabin inspections nor have adequate time.
    As a flight attendant, I take pride in my role as an 
aviation safety professional and I am pleased to have the 
opportunity to tell you what needs to be done to make our skies 
safe as we know now. While we are pleased that the carriers 
have quickly fortified the cockpit doors, little has been done 
to protect our passengers and flight attendants, who remain the 
first and last line of defense on the aircraft. I urge you to 
move swiftly on the adoption of these crucial security 
procedures in order to build a truly secure and safe aviation 
environment. Restoring faith in air travel is paramount.
    Thank you for allowing me to testify before you and I 
welcome any questions.
    Senator Durbin. Thank you for your testimony. Duane Woerth, 
who is a pilot with Northwest Airlines is next.

 TESTIMONY OF CAPTAIN DUANE E. WOERTH,\1\ PRESIDENT, AIR LINE 
               PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Woerth. Thank you. Good morning. My name is Duane 
Woerth. I am President of the Air Line Pilots Association, 
International, and ALPA represents 67,000 airline pilots who 
fly for 47 airlines in the United States and Canada and we 
sincerely thank you, Mr. Chairman, for inviting ALPA to present 
its views at this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Woerth appears in the Appendix on 
page 101.
---------------------------------------------------------------------------
    I want to say as emphatically as I can, ALPA and its 
safety-conscious professional pilot members believe it is safe 
to fly. Our members prove this each and every day when they go 
to work, and they have been proving it ever since just 2 days 
after the September terrorist attacks, when they were back in 
the air flying.
    Unfortunately, too many passengers are still afraid to fly, 
despite the aviation security advances made since that time. 
They need to know what kind of improvements have been made and 
are being made in order to bolster their confidence to return 
to air travel. This hearing should help in that regard.
    While there is still much work to be done, ALPA believes 
that significant progress has been made to improve aviation 
security, particularly in and around the aircraft, but it is 
the old cliche. There is good news and there is bad news. I 
will start with the good news.
    One of the immediate safety improvements recommended by 
ALPA and others was to harden and enhance cockpit doors. The 
airlines have worked diligently to strengthen existing cockpit 
doors and I am pleased to report that, as of last week, 100 
percent of all large-passenger aircraft have been fitted with 
some type of strengthening devices to make the doors, and thus 
the cockpits, more secure. We must now keep the pressure on to 
get the new high-technology doors installed on new aircraft 
which will also withstand gunshots or other types of forced 
entry.
    Another short-term enhancement which the FAA has ordered to 
be used for all passengers beginning September 28 is the use of 
computer assisted passenger pre-screening, called CAPPS, which 
the FAA ordered to be used for all passengers, as I said, after 
September 28. This program uses passenger information and 
airline databases to determine whether an individual poses a 
security risk. While the use of CAPPS is not visible to airline 
passengers, it is providing each of them with a significant 
added measure of security.
    The events of September 11 also created a very high level 
of security awareness of pilots, flight attendants, gate 
agents, and other airline personnel, as well as passengers. 
That awareness translates directly into a more secure 
operation. It means that pilots and flight attendants are 
coordinating and communicating more than ever before to ensure 
that each flight is secure.
    The terrorists of September 11 were successful because of 
surprise, because of security complacency, and because of a 
passive response by crew and passengers. All three of these key 
elements of the success of the terrorists are now gone.
    However, one of the most troubling problems for our pilots 
is that we have yet to see any evidence of our goal of one 
level of security. In fact, what we are seeing instead is a 
disturbing level of non-uniformity and security screening from 
airport to airport and even from terminal to terminal within 
the same airport. This is both exasperating and frustrating to 
passengers and airline pilots, who may be screened several 
different ways at several different airports in a single day.
    In addition, and I think this is important, security 
practices to protect a Boeing 747 cargo aircraft are still far 
less stringent than those for a passenger-carrying 747, even 
though both of those aircraft could be used as a terrorist 
guided missile.
    The bottom line is this: Inconsistent, even illogical 
security screening practices are doing very little for security 
and are, in fact, eroding the confidence the traveling public 
has in the current system, which in turn makes it much more 
difficult for the industry to rebound. Fortunately, this 
problem is one that can be addressed, at least in part, quickly 
and effectively.
    What is needed is a single security checkpoint screening 
standard for all screeners to help achieve one level of 
security. Such a standard already exists in the Checkpoint 
Operations Guide, or COG, which is used by screeners to some 
extent, but it is not a regulatory document. We have 
recommended to the FAA that they make the COG regulatory and 
train all screener personnel, both current and future hires, to 
strictly follow it. This simple action could be accomplished 
within a matter of a few weeks and would begin to restore 
public confidence in the system.
    ALPA continues to believe that identity verification is a 
critical component of aviation security that must be given top 
priority. We have been urging the government and the industry 
since 1987 to create an electronic universal access system to 
positively identify authorized employees. In the mid-1990's, 
the FAA completed successful tests of the universal access 
system and standards were finalized for the system. However, 
there are still no airlines that have implemented the universal 
access system because the FAA's policy has been to leave it to 
the sole discretion of the airlines.
    Although magnetic strip technology was used as the basis of 
the universal access test, there are now more advanced secure 
technologies that can be used to positively identify authorized 
personnel. One such technology is the new highly secure memory 
chip card system being tested by the FAA to identify armed law 
enforcement officers. ALPA wholeheartedly endorses the 
development of this memory chip card system and recommends that 
airlines use the memory chip card as the basis for the 
universal access system.
    One additional important area this would help in is 
identification of cockpit jumpseat riders. As a result of the 
September 11 attacks, the safety enhancement of a qualified 
extra trained jumpseat pilot has been severely curtailed 
because of the lack of certainty in positively verifying the 
jumpseater's request as to his identity and his employment 
status.
    I have much more lengthy comments I have submitted to you, 
Mr. Chairman. I would like those to be included in the record 
and I would like to answer any questions you may have.
    Senator Durbin. Thank you very much. I have to leave 
briefly. I will just ask a question or two.
    Mr. Carter, you said you would like more flexibility in the 
use of the National Guard at your airport. What would you do 
with the National Guard if you had that flexibility?
    Mr. Carter. What would really help us tremendously would be 
able to replace them on the curb of checking of the vehicles, 
and the second item would be the area getting into our short-
term parking lot. Those are two expenses that have just been 
hurting us terribly, and it would be great exposure, comfort 
level for the people coming into our lot, coming into our 
terminal space, and that is where I would like to see them.
    Right now, we have six National Guard people that are 
deployed to the airport. Two work on a first shift, two work on 
a second shift, and then we have two at the hotel. So we could 
use them out there immediately, and it frustrates me that we 
cannot get this accomplished.
    Senator Durbin. Thank you.
    I would like to ask Ms. Mathes and Mr. Woerth this 
question. Since September 11, have you seen any substantial or 
dramatic changes in the people who have access to an airplane, 
as to whether or not there are background checks, whether or 
not there is positive identification before they can get onto 
the ramp or near the airplane?
    Mr. Woerth. I would say that the difference is the 
awareness that I mentioned earlier. Everybody is a little more 
conscious. Everybody is looking at each other's ID card. But 
what we are still lacking is some form of positive electronic 
identification, which we believe is the only thing that is 
going to work. A little badge with a little picture on it the 
size of your thumb does not give anybody any comfort, so we 
need to go to the electronic system I described.
    Senator Durbin. Ms. Mathes.
    Ms. Mathes. I would agree with Mr. Woerth. We are checking 
all the badges and we are observing everything we can, but 
basically, the security system in place does not allow us to do 
positive ID.
    Senator Durbin. When I met with your flight attendants in 
Chicago, and I am not sure if you were at that meeting, but you 
could have been, but others from AFA were in attendance, they 
talked about this defense question for flight attendants. If 
we, as the system progresses and we move toward more air 
marshals, does that increase the confidence and feeling of 
safety among the people in your profession?
    Ms. Mathes. Actually, I think that it does. When I flew in 
this morning, one of my thoughts was that there probably was an 
air marshal on board when I came from Chicago to Washington, 
DC.
    Senator Durbin. I might just add for the record that our 
colleague, Senator Stabenow, was on the flight from Pittsburgh 
the other night that ran into a problem and there were two air 
marshals and an ATF agent to jump quickly to do the right 
thing, so I think there are extra precautions at this airport 
and I hope we will see that more in the future.
    Thank you all for your testimony. Thanks, Mr. Chairman.
    Chairman Lieberman. [Presiding.] Thank you, Senator Durbin, 
for co-chairing this hearing.
    Senator Thompson.
    Senator Thompson. Thank you. Ms. McInerney, do you think, 
from talking to the people that you represent, the frequent 
travelers, that they are interested in the issue of whether or 
not this system ought to be federalized before them? Are they 
tuned in to that issue one way or the other, do you think?
    Ms. McInerney. They are extremely tuned into it.
    Senator Thompson. What are you getting, and how does that 
rank in terms of feedback that you are getting, that issue?
    Ms. McInerney. Over 70 percent of the people that we are 
talking to tell us that federalization of the system, and by 
that, they mean an end-to-end solution, where the government is 
not outsourcing part of the screening process but is 
responsible for every piece of security from the beginning to 
the end, is what they need to see.
    They have felt, I think, some degree of confidence when we 
have looked at military personnel and other law enforcement 
personnel in the airports. That, again, is varying from place 
to place, but that is what they need to see in order to resume 
travel.
    They very much see aviation security as national security. 
They have put that equation together and are looking forward 
to, I think, an answer this week.
    Senator Thompson. I think we all feel better when we see 
those uniforms in the airport, but I guess we also know that 
once this system is geared up, those are not going to be the 
kind of people who are actually going to be looking through 
those screeners and making those determinations and coming to 
work every day.
    Ms. Mathes, do you have the same feeling among the people 
you represent, do you think?
    Ms. Mathes. Yes, I feel the same way. I think that the 
Federal Government is in charge of it from the beginning to the 
end, that people will feel more confident about the security 
process.
    Senator Thompson. One of the things that I think is a 
legitimate point on the other side, people make the point that 
Europeans seem to have done very well with a different kind of 
system, that the Israelis seem to have done very well with a 
different kind of system, and both of those places are more 
government-oriented in terms of most of their policies than we 
are. Do you know anything about that? Do any of you have any 
opinion as to why that might work better? Mr. Woerth.
    Mr. Woerth. Senator, I believe the Israeli airline is owned 
by the government. I think the Israeli example is one that 
really shows that the government took charge of this. They have 
not had a hijacking since 1968, since they take it deadly 
serious. It is a national security issue for Israel and that is 
why they have been successful.
    Certainly, my members, and I have been on record that the 
Airline Pilots Association supports the Senate version. We 
think that is the best bill and the sooner it gets passed, and 
we think not only is it the best result, we also realize our 
passengers believe it is the best result. It has a two-pronged 
effect. We will have better security and the passengers will 
come back quicker with the Senate bill. I really believe that.
    Senator Thompson. Thank you very much for that.
    On the issue of inconsistency, I do not know quite what to 
think about that. That point has been made by a lot of people. 
Clearly, if we go back to childhood and tell Daddy, Mama did 
not make us do that, so why should we do it for you? It is not 
the merits of the case, it is the fact that somebody else did 
something differently.
    I am wondering what our real point is when we talk about 
the inconsistency. Is it aggravation, or is it that some of the 
more liberal conduct is not protecting us enough? It would seem 
to me like some inconsistency with regard to policies, like who 
gets checked and what gets checked, might be good. I am not 
sure that everybody ought to know exactly what they are going 
to be faced with. It looks to me like you could have some 
consistency as to what might be confiscated, for example, the 
tweezers versus the meat cleaver, but the process itself, 
perhaps that is not all bad.
    We run into the same thing. I came back from New York and I 
got both my bags gone through and my briefcase gone through 
twice, I think, before I made it, so I fit the profile that 
Senator Voinovich did, too, I guess.
    But does that make sense? Could we make a distinction 
between the kinds of things confiscated, perhaps, versus who 
gets checked?
    Mr. Woerth. Senator, I think this is one of the problems we 
have. Because there was a sharp instrument, a razor blade or a 
box cutter used in that instance, we got so focused on anything 
that might be sharp. So the first security directive came out 
and our security screeners are doing what they were told. Now 
they are looking for every cuticle scissors, every fingernail 
file, every cigar cutter, and the mind can only comprehend and 
concentrate on so much. So while they are so intent on that, it 
is not surprising that a meat cutter gets through or a cleaver 
because they are exhausted looking for tweezers.
    We have got to get some common sense back into this system, 
and I think the passengers know the difference between the 
weapons of mass destruction, which is not a cigar cutter and it 
is not your eyeglass screwdriver. When they understand that and 
they see us focusing, looking for serious weapons and not 
tweezers from 84-year-old grandmothers, we will have real 
security because we will have time to do real security and we 
will not be just harassing passengers and crew members. That is 
what we have got to get back to.
    Senator Thompson. Ms. Mathes, you represent people probably 
that have the most at stake because you fly more than anybody, 
and even more than the pilots now, I am sure, as you see these 
doors being built that nobody can get through, so you are on 
your own now.
    Ms. Mathes. Exactly.
    Senator Thompson. What would be the most--maybe you have 
prioritized this and I did not pick up on it. Is there one 
thing that stands out in your mind to the people that you 
represent that you think would be the single most important 
thing that could be done in order to make you feel more 
comfortable and, therefore, your passengers?
    Ms. Mathes. Well, I think as we mentioned earlier, I think 
an air marshal on board makes everyone feel comfortable. Of 
course, only the crew would actually know that they were on 
board.
    Also, I think that flight attendants would like some line 
of self-defense training so that we can protect ourselves and 
have some knowledge and background training on how to deal with 
a situation. At this point, we have just basic minimal training 
for hijacking, and up until September 11, we always planned 
that airplane would land.
    Senator Thompson. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Thompson.
    Senator Voinovich, do you want to go next? Are you in a 
hurry?
    Senator Voinovich. Yes, I do.
    Chairman Lieberman. No, go right ahead. I am here. Please.
    Senator Voinovich. I would just like to say this. I do not 
know about you, but I feel safer traveling today than I ever 
have in my entire life. I think that if you look at where we 
were and where we are today, substantial improvements has been 
made. Security is not perfect and there are exceptions to the 
rule, including the inconsistency and so forth.
    But I would like you to comment on it. What is your 
appraisal of the situation today versus what it was before 
September 11 in terms of the safety of flying?
    Mr. Woerth. Senator, I agree with you. Before, ignorance 
was bliss. We did not think we were at risk, so therefore we 
were happy with the complacent security. I, probably in the 
last 15 months, have testified not on security, but at least 
nine times on air traffic control delays. Between the Senate 
and the House, nine different testimonies. We were worried 
about throughput. We were worried about time. We were worried 
about efficiency. That was the focus of the Nation. After 
Lockerbie, we thought if we were checking on only international 
flights for bombs, everything else was fine.
    The truth is, ignorance was bliss. But we are safer now. 
There is more security now. Every single airline personnel, the 
government, everybody is doing more now. We are as safe as we 
have ever been, and that is a fact.
    Senator Voinovich. Ms. Mathes.
    Ms. Mathes. I think as airline employees, we definitely are 
safer. I think we have the same respect and confidence in our 
pilots, that they are very qualified and very trained. That was 
never an issue for our security.
    However, because of September 11, the security issue has 
come to light. So as far as mechanics and our trained and 
qualified pilots on the aircraft, as well as the flight 
attendants, that is a safety issue that remains the same and I 
think very highly acceptable.
    Again, with the security issue and some of the elements 
that get by, security and the inconsistency is a question and a 
problem for a lot of us.
    Ms. McInerney. If I might comment on that, Senator, I think 
you are right. I think that the skies are safer and are getting 
safer and that is something that the American public needs to 
hear. But as we look back pre-September 11, I think that we had 
left our system open to a high degree of vulnerability. In many 
cases, I think our high schools had better security systems 
than our Nation's airports did. We were looking at a system 
that was over-capacity. We were trying to move travelers 
through very quickly. There was a different focus on what their 
needs were.
    And I think that we, the travelers, probably assumed that 
behind the scenes, the security issues were being addressed. 
What we have found out is that they were not, and now, more 
than ever, I think travelers are willing to give up some of the 
time that they have been spending before that was precious to 
them. They are now willing to compromise that. They want to see 
a stronger system and they are willing to pay the price for 
that.
    Mr. Carter. Senator, let us look when the passenger comes 
to the terminal. You never had presence of law enforcement 
officers or guards or National Guard out on the curb. When a 
vehicle is coming to the terminal, that vehicle is getting 
checked if it is unloading something for a restaurant or a gift 
shop or for the airline. Then if the passenger gets into the 
line to get into the ticket counter area, you are showing your 
ID. You could be a selectee to have that bag checked at that 
point.
    As you go out to get to the screening checkpoint, you have 
only ticketed passengers now beyond the screening checkpoint. 
Before, those people at the screening checkpoint were getting 
stressed because you had passengers and you had the loved ones 
that wanted to walk with the people to the gate. Those people 
had billfolds. They had purses that had to go through that. It 
stressed those people out at the screening checkpoint because 
you had so many more people going through.
    Once you are out to get on the airplane, you are showing 
your ID once again. If you are a selectee, you are getting your 
bag checked. You are getting wanded. You are constantly being 
wanded, both at the screening checkpoint as well as at the 
gate. And yesterday, I was surprised. When I got on the 
airplane, they actually checked the boarding pass. That had 
never happened to me before, also.
    So I think there has been an increased presence in a lot of 
the things that have happened since September 11.
    Senator Voinovich. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Voinovich.
    Thanks to the witnesses on this panel. I have a few 
questions. I apologize that I had to step out for a meeting. I 
did get to look at your testimony and it was very helpful. 
There are times at hearings like this that I wish we could call 
the first panel back after the second panel to respond to some 
of the things you have said, and we will definitely share your 
testimony with the FAA and ask for responses to some of the 
questions you have raised.
    There was a fair amount of focus earlier on, and to some 
extent in this panel, on the bomb detection equipment. I must 
say, I was startled by the earlier testimony that less than 10 
percent of the baggage goes through the bomb detection 
equipment 13 years after Lockerbie. I just had another thought 
that was your concern, Mr. Carter, about small airports 
affording these machines, which is whether, if we are moving 
toward public, that is, Federal Government, personnel doing the 
screening, whether, in fact, the government ought not to be the 
ones buying the equipment.
    For instance, when I go through the screening device, the 
magnometer or whatever it is, as I am heading up to get on a 
plane? Who owns that?
    Mr. Carter. Well, we are a little different than some 
airports because I get very concerned about security, and 
usually, the airlines own the equipment.
    Chairman Lieberman. That is true?
    Mr. Carter. And you know, the airlines, are we going to go 
ahead and spend $35,000? No. So what I did at my airport last 
year, I bought the most sophisticated piece of equipment for 
$35,000 from RapiScan and then I charged the airlines back at 
10 cents a passenger and I got my money back in 1 year, and I 
think that made a lot of sense.
    You look at an airport our size, you have that $1 million 
piece of equipment. Where would you put that at so that you 
could have all five of your carriers be able to funnel those 
bags in, but right now, we have 400,000 passengers enplaning at 
our airports. Not one of those checked bags go through a 
detection device. They go through seven different hubs.
    Chairman Lieberman. Very interesting. So right now, the 
airlines own that equipment and the airport owns the bomb 
scanning devices, generally?
    Mr. Carter. I would say not the airports. It would be the 
airlines, I would think.
    Chairman Lieberman. Not the airports. Again, it is the 
airlines.
    Mr. Carter. Right.
    Chairman Lieberman. So there is part of the problem. I do 
not want to take on more for the Federal Government. It does 
seem to me if we are going to start having Federal employees 
doing the work, then we ought to have Federal money going into 
purchasing the equipment. I know it is not an exact comparison, 
but it would be a little like having the, I do not know, police 
cars in a town privately owned while the police were obviously 
paid by the public.
    I was very interested in what you said, Ms. McInerney, in 
your last statement, and it goes back to your earlier 
testimony, which is that you are finding among your members a 
willingness to have a little bit of delay, and maybe more than 
a little bit of delay, in the interest of safety. Why don't you 
talk about that a little bit more.
    Ms. McInerney. I think prior to September 11, our system 
was certainly at over-capacity and the biggest concern of a 
traveler was how quickly I can get from point A to point B. Our 
system being stressed, those delays were costing American 
corporations billions of dollars and our company was the first 
to come forward and measure those losses.
    I think today, we are looking at a different type of risk 
and I think that our frequent fliers, our business travelers, 
and even our leisure travelers have taken a step back, and I 
think that travel is not so much now about where you are going, 
it is also about who you are leaving.
    Chairman Lieberman. Yes, well said.
    Ms. McInerney. I think as I am talking to business 
travelers, they are feeling the stress of those family members 
and loved ones that they leave behind. It is not unusual now 
for me to talk to someone and have their child say to them, 
``Mom, Dad, please do not get on that plane.'' Those are the 
kind of conversations that are appearing and happening in 
American households and I think it is the government's 
responsibility to try and make all of those travelers and their 
families and loved ones feel a little bit safer.
    We simply have to be willing to put our own investment in 
there, and if the investment on the travelers' part is time as 
well as giving up some of their own efficiencies, I think we 
are willing to pay that price. We are not willing to see 
security go out to the lowest bidder and we are not willing to 
have inconsistencies at airports. But where it relates to time, 
we are now seeing American companies and American travelers 
being willing to take on those additional costs.
    Chairman Lieberman. That is very important. It is clear 
that before September 11, the airlines certainly were operating 
on the assumption that the public was not going to take too 
much inconvenience in the interest of safety, so I hope they 
are listening now and also that we are. And then as time goes 
by and the pain of September 11 and the jolt and the fear 
associated with September 11 recedes, as we hope it will 
because airline travel will be safe and there will be no more 
terrorist accidents, then it is very important to keep our 
guard up, in other words, to remember the feeling that we have 
now so that we do not become vulnerable.
    I wanted to ask Ms. Mathes and Mr. Woerth whether the 
treatment that I and some of the others here have been giving 
to the airlines is fair. In other words, I am not trying to 
paint them as evil, I am just saying in the normal course of a 
business life or business career, if you are a CEO or chief 
financial officer and you are in an industry that has ups and 
downs and you are under pressure quarterly to report to your 
stockholders, security becomes a lower priority than it should 
be.
    Ms. Mathes. Exactly. That is why we would like to see the 
Federal Government take over.
    Chairman Lieberman. Yes. Do you agree, Mr. Woerth?
    Mr. Woerth. Yes. Besides being the president of this union, 
I actually served on a corporate board of Northwest Airlines 
for 5\1/2\ years and had some pretty raucous fights on the 
financial committee and others, which is natural. This is a 
very brutally competitive business.
    Chairman Lieberman. Right.
    Mr. Woerth. What we need to ensure is that if we want one 
level of safety, and we have insisted that we do not expect 
airline passengers to shop from the safety record of airlines, 
if we want to have one level of security, and especially, 
Senator, the last point that was made, $1 million per machine, 
we do not need a few of these, we do not need a few dozen, we 
need hundreds and hundreds of these machines.
    Chairman Lieberman. Right.
    Mr. Woerth. We are talking billions of dollars here. The 
airlines are not going to be able to finance this. I mean, if 
they wanted to and the CEO is pledged to it, he could not do 
it.
    Chairman Lieberman. Right.
    Mr. Woerth. So to get the level of security with that new 
equipment, we are going to need some government help. But more 
than that, I think it is important that every passenger can 
pick any airline they want because it is going to be the same 
level of security at every airline, not just those who can 
afford it and whose CEO is committed to it.
    Chairman Lieberman. That reminds me of something I read in 
your testimony, Captain, where you advocate the use of a single 
security checkpoint screening standard to achieve security, but 
also to help restore consumer confidence, and I think you 
referred to a document called the Checkpoint Operations Guide 
that could serve as the standard for realizing that kind of 
purpose. Can you talk a little bit about how that was developed 
and what difference it would make for those of us who are 
passengers?
    Mr. Woerth. I think that is the biggest difference. It is 
already work that is accomplished. The FAA, along with the 
airlines, along with flight attendants, along with pilots, put 
that together some time ago and it is so every security 
screener would know exactly what is expected. He would not be 
taking away your pen flashlight because he knows that is not a 
weapon.
    Right now, we have very inconsistent training. We do not 
have to invent a new guide. One is already there. We might even 
improve upon that, but we at least have something that is in 
print, can just be made part of the regulatory package. We 
could be using it. Now, it is just gathering dust.
    Chairman Lieberman. And what would be different for those 
of us who are buying a ticket and going on a plane?
    Mr. Woerth. Probably a lot of it may be more perception 
than reality. But I know it is extremely discomforting, as all 
the witnesses here have testified and the passengers that I 
talk to and all of our crew members have said. Part of the 
professional attitude they expect to see that we see in our 
profession, certainly they want every pilot to have the same 
checklist preformed the same way. The same with flight 
attendants. Those standard operating procedures and practices 
makes it safer and instills confidence.
    Just the opposite occurs when you have a different 
experience at every airport and at different terminals in the 
same airport. It instills a lack of confidence.
    So I think it is probably more that than in reality, but 
when we see the same standard everywhere, people will be 
confident again that somebody professional is in charge of the 
operation.
    Chairman Lieberman. Right. Ms. Mathes, I remember for me a 
particularly poignant part of your prepared testimony when I 
read it, if I remember it correctly, which is that since 
September 11, not much has really changed for flight 
attendants. That is, there has not been any additional training 
or support. I do not know whether you talked about that when 
you testified before, but would you talk just a little bit 
about it now?
    Ms. Mathes. Well, basically from what I have witnessed, 
nothing really has changed besides the ID badging was changed a 
little bit and updated. As far as on the airplane, the cockpit 
door is secured at this point, and we witnessed the changeover 
of that. We now brief so that we have a plan on board. But as 
far as for flight attendants, nothing has changed for our 
security. We come to work the same way. I mean, we go through 
security, but that really has not changed, either.
    Chairman Lieberman. What would you like to see changed, the 
top one, two, or three things?
    Ms. Mathes. Well, I would like to see there be some form of 
a self-defense program. That should be something standard that 
all of us can comply by, where you would have intact rules and 
regulations for how you would handle a situation. I would like 
to see more cooperation with management and possibly the 
government in that area.
    I have been on an aircraft where we make the rules up as 
far as first class and main class using the lavatories as we 
go. I want to see everything standardized, so that when we 
enter that aircraft, we know what we are going to do and how we 
are going to handle it.
    Chairman Lieberman. So if you have not received any other 
training, how do flight attendants coordinate with the larger 
number of sky marshals that are on planes now? I gather there 
is a meeting before the flight takes off, but are flight 
attendants given instructions as to how to work with the 
marshals in the event of a crisis?
    Ms. Mathes. Actually, from the information I have read as 
far as the sky marshal being on board, that you would be 
introduced, but you are not to treat them as if they are 
different from any other passenger or even acknowledge that 
they are a sky marshal.
    Chairman Lieberman. So in the event that a passenger or 
group of passengers suddenly begins to take hostile action, are 
flight attendants told what to do at that point?
    Ms. Mathes. Get out of the way.
    Chairman Lieberman. Get out of the way and let the marshals 
deal with it?
    Ms. Mathes. Yes.
    Chairman Lieberman. Yes. OK, just one more question--well, 
two more. The first is, what do you all see happening in the 
so-called secure areas? I think one of the points of 
vulnerability that has become more clear to us is that there 
are so many thousands of people working at airports, not only 
screening us but behind the scenes in areas where passengers do 
not go, who have regular access to baggage and the airplanes, 
people who service the planes, who bring food on, clean, etc.
    Since September 11, have we seen standards, procedures, 
protections change? Mr. Carter, do you want to start that?
    Mr. Carter. Yes, I will start. The FAA did come down with 
the directive to only allow vehicles through the gate into the 
side area, the secure area, to be checked by a guard and have 
the vehicle checked. That is the major change that we have 
seen.
    We have put a request in to the FAA to at least allow the 
airport operator, the airport director should have an 
opportunity to get on his airfield without having to have his 
trunk checked. That is how I feel, and we are trying to get 
that from the FAA. We put that request in on Thursday and we 
still have not gotten a response from it, but that is one of 
the major changes I have seen, is access to the air operations 
area, the side area.
    Chairman Lieberman. Does anyone want to add anything to 
that?
    Mr. Woerth. I would just say that is still one of the 
weaker links.
    Chairman Lieberman. It is.
    Mr. Woerth. It is until we have, as in my testimony, those 
electronic ID cards, so once you enter a secure area, everybody 
is confident. You can go where you want to because everybody in 
that secure area is accounted for. Just having a plastic ID 
card with somebody's picture on it does not do it.
    Chairman Lieberman. It is not enough.
    Mr. Woerth. We have got to get that electronic 
identification.
    Chairman Lieberman. Ms. Mathes, did you want to add 
anything to that, or Ms. McInerney?
    Ms. McInerney. I would like to add an experience I just 
witnessed on Friday.
    Chairman Lieberman. Go ahead.
    Ms. McInerney. I was at Boston Logan last Friday, taking a 
U.S. Airways shuttle. It was a five o'clock takeoff time, so it 
was certainly a busy screening area, staffed by MPs who were 
doing a very good job, might I add, and four gentlemen just 
came and began to walk around the security and they noted that 
they were there and they were contractors working on the 
airport. They had no IDs. They had not been discussed to. They 
had a conversation. They went around the screening.
    Chairman Lieberman. Right.
    Ms. McInerney. They were then detained for about 10 
minutes. I sat as an interested observer and watched while they 
still could not work these things out. They kept saying that 
they were there to fix something. No one could determine who 
had hired these people, where they had come from. They had no 
work orders. And to me, that is a little bit frightening to be 
occurring almost 80 days later.
    Mr. Carter. And in the real world, they should be, those 
people that she is talking about should be escorted by a person 
that does have that ID badge that has verification.
    Chairman Lieberman. Right.
    Mr. Carter. That should happen immediately.
    Chairman Lieberman. At least they were stopped.
    Ms. McInerney. They were stopped, but only barely. An 
employee happened to notice them as he was changing shifts. 
Certainly, we all have to have a high degree of trust, but you 
cannot stop but wonder.
    And what is concerning to me is that there were over 100 
passengers, many of whom just were talking among each other, 
because now we are almost like we were with HMOs. Back in the 
day, we used to say, this is what happened to me when I went to 
the doctor, this is what happened to me. Today's cocktail talk 
is about experiences at airports. We might as well be trading 
baseball cards. A hundred passengers, many of whom were first-
time fliers since September 11, witnessed that, and I cannot 
imagine how many people they have since discussed that with. It 
is a little frightening.
    Chairman Lieberman. Unfortunately, I agree. I would rather 
be swapping baseball cards, but Senators are swapping stories 
like that, too.
    Did you want to add anything, Ms. Mathes?
    Ms. Mathes. I just wanted to say that, actually, we are a 
little concerned by the food that is brought on the aircraft. 
Even though the carts are taped with a blue tape and locks may 
be on the other carts, we still have no way of knowing whether 
the food was actually tampered with before it came on the 
aircraft and we are not even sure if the food service workers 
were screened before they went to work that day. So it is a 
concern of ours.
    Chairman Lieberman. Do you have any response to that, Mr. 
Carter?
    Mr. Carter. I have been seeing the same thing that she has 
been mentioning.
    Chairman Lieberman. Yes.
    Mr. Carter. That was my concern when I am watching this, 
because I know that if an employee is coming on that field, I 
know that they are not going through a screening checkpoint. 
The food service people, I have never seen a magnetometer over 
in the food area.
    Chairman Lieberman. That is a problem. That is a point of 
vulnerability. I am going to ask that question to the FAA. I 
appreciate your mentioning it.
    A final question. Ms. McInerney, has the Business Travel 
Association every tried to calculate the impact of business air 
travel on the economy? In other words, as we look at the 
extraordinary decline in air travel now, and we know that some 
of it must be related to the weakening economy, some related to 
fears of terrorism, but then it also has a causal effect, 
negative, on the weakening economy.
    Ms. McInerney. Well, we look at it from two different 
perspectives. First, the travel industry net loss for 2002 is 
already projected to be about $2.4 billion. That is probably a 
conservative estimate.
    Chairman Lieberman. Two-point-four billion dollars?
    Ms. McInerney. Correct.
    Chairman Lieberman. And that is overall, airlines and 
tourism.
    Ms. McInerney. Correct.
    Chairman Lieberman. I was in Florida over the weekend and 
there is really a state of unemployment numbers that are rising 
rapidly and the concerns about air travel have had a very 
drastic effect on tourist areas like that.
    Ms. McInerney. Well, the overall loss to the GDP is 
projected to be close to 10 times that much, as this has a 
causal effect.
    Chairman Lieberman. Ten times the $2.4 billion----
    Ms. McInerney. Two-point-four billion dollars, correct. And 
in line with that, as we are talking to corporations, they have 
sat out the last few quarters traveling. There is a loss to 
them in productivity and sales and marketing.
    Chairman Lieberman. Right.
    Ms. McInerney. So I think that we have not seen the end of 
what the economic impact of this crisis will be.
    Chairman Lieberman. Unfortunately, I agree with you.
    I thank the four of you. You have been an excellent panel 
of witnesses. To me, the hearing has shown, as I guess all of 
you said before, that aviation security has been improved since 
September 11 in this country, but it is obvious we have a ways 
to go yet before we can have the confidence that we want air 
travelers to have.
    I must say, when I go back to the previous panel, and you 
have augmented it, we really did let ourselves become too 
relaxed about these matters. I mean, it is human nature, 
unfortunately. We did an earlier hearing here on September 25, 
post-September 11, and I ended up concluding--I never would 
want to say that my conclusion was that if airline security was 
what it should have been on September 11, we could have stopped 
all those terrorist attacks, but we sure could have made them a 
lot harder to have pulled off, and I think some of them 
probably would have been stopped if everything we are beginning 
to put in place and will if this aviation security legislation 
ever gets agreed on and passed. It is going to be--you never 
want to say impossible--but a lot harder for terrorists to do 
what they did on September 11.
    This Committee is going to stay active in this area, and we 
know how important it is to the American people, how important 
it is to the people who work in the aviation system, and how 
important it is to our economy, so I thank each of you for the 
contribution you have made to our efforts.
    At this point, the hearing will be adjourned.
    [Whereupon, at 1:29 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                  PREPARED STATEMENT OF SENATOR AKAKA
    I would like to thank the Chairman of our Committee and the 
Chairman of the Subcommittee on the Oversight of Government Management 
for calling today's follow up hearing on airline security. I also call 
on our colleagues who are debating the airline security bills to 
complete their work as quickly as possible. The Senate passed its bill 
a month ago, and it is wrong to delay its implementation any longer.
    When the al-Qaida network turned four U.S. airplanes into guided 
missiles, the vulnerabilities in our nation's air transportation 
industry were revealed. In the wake of September 11, Congress and the 
Administration have taken positive steps to protect the flying public 
through increased security at airports and hardening commercial planes. 
There is now increased information sharing among intelligence and law 
enforcement agencies; mandatory criminal history background checks for 
all airline and airport employees with access to secure areas; expanded 
use of the Computer Assisted Passenger Prescreening System and 
explosives detection equipment; and funding for cockpit door security.
    However, more must be done to restore the public's confidence that 
all passengers will reach their destinations safely. Like the railroads 
that opened the American West in the 1800's, air travel has helped 
define our nation. For me, it would be hard to image Hawaii without the 
millions of tourists who annually enjoy the 50th state.
    Hawaii, more than any other state, is economically dependent on a 
vibrant tourism and airline industry. Tourism accounts for a quarter of 
the state's economy and a third of its jobs. At the end of September, 
tourism in Hawaii was down 40 percent and more than 11,000 people 
employed in the industry were out of jobs. The October figures are 
expected to be substantially higher. A delayed recovery in the tourism 
industry could lead to a loss of $1 billion and 24,000 jobs.
    While there have been positive steps recently, the tragic crash in 
the Rockaway neighborhood of Queens--which is considered to be 
unrelated to the events of September 11--has reopened wounds and 
reinstated fears about flying and traveling.
    On behalf of the State of Hawaii and the nation's airline and 
tourism industry, we must do all that we can to ensure that air travel 
is safe and secure so that we may travel our nation's airspace without 
fear.
    I welcome our distinguished witnesses.

                               __________
                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Our country has taken a serious blow over the past 2 months--not 
only are we coping with the terrorist attacks on September 11 and the 
anthrax letters, but we now face another airline crash which occurred 
on November 12.
    My thoughts and prayers are with the victims of American Airlines 
flight 587 and their families.
    Today's hearing focuses on the security of our airports and 
airplanes.
    I think all of us would agree that changes need to be made to our 
aviation security as soon as possible.
    Since September 11, we have heard news reports of passengers trying 
to enter cockpits and passengers carrying knives and other weapons past 
the airport screeners.
    We have also heard reports about some of the problems with the 
screening companies that handle airport security, including failing to 
do background checks and hiring illegal aliens.
    Situations like this need to be stopped immediately and should not 
be tolerated.
    Congress is working on legislation to help make flying safer. Both 
the House and the Senate have passed aviation security bills, and I 
hope we can work out the differences between the two versions soon.
    We need to get a final version of this legislation to the President 
so he can sign it into law, and we can start implementing some of these 
important reforms.
    Let me add, however, that while we need to act as quickly as 
possible, we shouldn't act rashly. We need to make sure that our 
reforms will truly make our skies safer.
    Americans must feel safe as they pass through airport medal 
detectors and take their seats on airplanes. If they do not feel safe, 
they will not fly.
    I look forward to hearing from our guests today, and gaining their 
perspective on this important issue.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T7439.001
    
    [GRAPHIC] [TIFF OMITTED] T7439.002
    
    [GRAPHIC] [TIFF OMITTED] T7439.003
    
    [GRAPHIC] [TIFF OMITTED] T7439.004
    
    [GRAPHIC] [TIFF OMITTED] T7439.005
    
    [GRAPHIC] [TIFF OMITTED] T7439.006
    
    [GRAPHIC] [TIFF OMITTED] T7439.007
    
    [GRAPHIC] [TIFF OMITTED] T7439.008
    
    [GRAPHIC] [TIFF OMITTED] T7439.009
    
    [GRAPHIC] [TIFF OMITTED] T7439.010
    
    [GRAPHIC] [TIFF OMITTED] T7439.011
    
    [GRAPHIC] [TIFF OMITTED] T7439.012
    
    [GRAPHIC] [TIFF OMITTED] T7439.013
    
    [GRAPHIC] [TIFF OMITTED] T7439.014
    
    [GRAPHIC] [TIFF OMITTED] T7439.015
    
    [GRAPHIC] [TIFF OMITTED] T7439.016
    
    [GRAPHIC] [TIFF OMITTED] T7439.017
    
    [GRAPHIC] [TIFF OMITTED] T7439.018
    
    [GRAPHIC] [TIFF OMITTED] T7439.019
    
    [GRAPHIC] [TIFF OMITTED] T7439.020
    
    [GRAPHIC] [TIFF OMITTED] T7439.021
    
    [GRAPHIC] [TIFF OMITTED] T7439.022
    
    [GRAPHIC] [TIFF OMITTED] T7439.023
    
    [GRAPHIC] [TIFF OMITTED] T7439.024
    
    [GRAPHIC] [TIFF OMITTED] T7439.025
    
    [GRAPHIC] [TIFF OMITTED] T7439.026
    
    [GRAPHIC] [TIFF OMITTED] T7439.027
    
    [GRAPHIC] [TIFF OMITTED] T7439.028
    
    [GRAPHIC] [TIFF OMITTED] T7439.029
    
    [GRAPHIC] [TIFF OMITTED] T7439.030
    
    [GRAPHIC] [TIFF OMITTED] T7439.031
    
    [GRAPHIC] [TIFF OMITTED] T7439.032
    
    [GRAPHIC] [TIFF OMITTED] T7439.033
    
    [GRAPHIC] [TIFF OMITTED] T7439.034
    
    [GRAPHIC] [TIFF OMITTED] T7439.035
    
    [GRAPHIC] [TIFF OMITTED] T7439.036
    
    [GRAPHIC] [TIFF OMITTED] T7439.037
    
    [GRAPHIC] [TIFF OMITTED] T7439.038
    
    [GRAPHIC] [TIFF OMITTED] T7439.039
    
    [GRAPHIC] [TIFF OMITTED] T7439.040
    
    [GRAPHIC] [TIFF OMITTED] T7439.041
    
    [GRAPHIC] [TIFF OMITTED] T7439.042
    
    [GRAPHIC] [TIFF OMITTED] T7439.043
    
    [GRAPHIC] [TIFF OMITTED] T7439.044
    
    [GRAPHIC] [TIFF OMITTED] T7439.045
    
    [GRAPHIC] [TIFF OMITTED] T7439.046
    
    [GRAPHIC] [TIFF OMITTED] T7439.047
    
    [GRAPHIC] [TIFF OMITTED] T7439.048
    
    [GRAPHIC] [TIFF OMITTED] T7439.049
    
    [GRAPHIC] [TIFF OMITTED] T7439.050
    
                                   - 

</pre></body></html>
